<html>
<title> - DOES THE HOMELAND SECURITY ACT OF 2002 GIVE THE DEPARTMENT THE TOOLS IT NEEDS TO DETERMINE WHICH BIO-WARFARE THREATS ARE MOST SERIOUS?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 DOES THE HOMELAND SECURITY ACT OF 2002 GIVE THE DEPARTMENT THE TOOLS IT 
     NEEDS TO DETERMINE WHICH BIO-WARFARE THREATS ARE MOST SERIOUS?

=======================================================================

                             JOINT HEARING

                               before the

          SUBCOMMITTEE ON EMERGENCY PREPAREDNESS AND RESPONSE

                                and the

             SUBCOMMITTEE ON INTELLIGENCE AND COUNTERRORISM

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2003

                               __________

                            Serial No. 108-8

                               __________

 Printed for the use of the Subcommittee on Emergency Preparedness and 
   Response, Subcommittee on Intelligence and Counterrorism, and the 
                 Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/ 
                                 house

                               __________


                 U.S. GOVERNMENT PRINTING OFFICE

94-365                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001









                 SELECT COMMITTEE ON HOMELAND SECURITY

                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York            New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                    District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, JR., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona               U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff
         UTTAM DHILLON, Chief Counsel and Deputy Staff Director
                  STEVEN CASH, Democrat Staff Director
                    MICHAEL S. TWINCHEK, Chief Clerk
   Subcommittee on Cybersecurity, Science, and Research & Development

                    MAC THORNBERRY, Texas, Chairman

PETE SESSIONS, Texas, Vice Chairman  ZOE LOFGREN, California
SHERWOOD BOEHLERT, New York          LORETTA SANCHEZ, California
LAMAR SMITH, Texas                   ROBERT E. ANDREWS, New Jersey
CURT WELDON, Pennsylvania            SHEILA JACKSON-LEE, Texas
DAVE CAMP, Michigan                  DONNA M. CHRISTENSEN,
ROBERT W. GOODLATTE, Virginia          U.S. Virgin Islands
PETER KING, New York                 BOB ETHERIDGE, North Carolina
JOHN LINDER, Georgia                 CHARLES GONZALEZ, Texas
MARK SOUDER, Indiana                 KEN LUCAS, Kentucky
JIM GIBBONS, Nevada                  JAMES R. LANGEVIN, Rhode Island
KAY GRANGER, Texas                   KENDRICK B. MEEK, Florida
CHRISTOPHER COX, California, ex      JIM TURNER, Texas, ex officio
officio

                                  (II)












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Shadegg, Chairman, Subcommittee on Emergency 
  Preparedness and Response, and a Representative in Congress 
  From the State of Arizona......................................     1
The Honorable Christopher Cox, Chairman, Select Committee on 
  Homeland Security, and a Representative in Congress From the 
  State of California............................................     2
The Honorable Jim Gibbons, Chairman, Subcommittee on Intelligence 
  and Counterterrorism, and a Representative in Congress From the 
  State of Nevada
  Prepared Statement.............................................     6
The Honorable Donna M. Christensen, a Delegate in Congress From 
  U.S. Virgin Islands............................................    27
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................    24
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina
  Prepared Statement.............................................    10
  Oral Statement.................................................    34
The Honorable Barney Frank, a Representative in Congress From the 
  State of Massachusetts.........................................     2
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................     1
The Honorable Karen McCarthy, a Representative in Congress From 
  the State of Missouri..........................................     7
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................     3
Mr. Paul Redmond, Assistant Secretary for Information Analysis, 
  Department of Homeland Security
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    29
The Honorable John E. Sweeney, a Representative in Congress From 
  the State of New York..........................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................    16
Mr. Eric Tolbert, Director, Response Division Emergency 
  Preparedness and Response Directorate Department of Homeland 
  Security
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas.................................................     9
















DOES THE HOMELAND SECURITY ACT OF 2002 GIVE THE DEPARTMENT THE TOOLS IT 
     NEEDS TO DETERMINE WHICH BIO-WARFARE THREATS ARE MOST SERIOUS?

                              ----------                              


                         Thursday, June 5, 2003

             U.S. House of Representatives,
             Subcommittee on Emergency Preparedness
                                  and Response, and
         Subcommittee on Intelligence and Counterterrorism,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:05 p.m., in 
Room 345, Cannon House Office Building, Hon. John B. Shadegg 
[chairman of the Emergency Preparedness and Response 
Subcommittee] presiding.
     Present: Representatives Shadegg, Sweeney, Dunn, Smith, 
Shays, Camp, Linder, Thornberry, Sessions, Cox [ex officio], 
Thompson, McCarthy, Markey, Frank, Cardin, Lowey, Norton, 
Pascrell, Christensen, Etheridge, Lucas, Langevin, Meek, and 
Turner [ex officio].
    Mr. Shadegg. Good afternoon. I would like to call the 
meeting in session, this meeting of the Subcommittee on 
Emergency Preparedness and Response of the Select House 
Committee on Homeland Security and the Subcommittee on 
Intelligence and Counterterrorism.
    Today we are holding a joint hearing on Project BioShield, 
the title of which is, ``Does the Homeland Security Act of 2002 
Give the Department the Tools it Needs to Determine Which Bio-
Warfare Threats are Most Serious?''
    The rules of the committee provide that each member in 
attendance at the sounding of the gavel, or within 5 minutes 
thereafter, is entitled to either make an opening statement or 
to take a full 8 minutes for their questioning. Because it is 
late in the afternoon on a Thursday afternoon, I would like to 
suggest that it might be appropriate if we limit opening 
statements to the chairs of the two subcommittees, the ranking 
member of the two subcommittees and the chair and ranking 
member of the full committee.
    I would make that request by unanimous consent. Is there 
any objection?
    Mr. Markey. May I make a comment? Reserving the right to 
object, is it possible we could limit everyone to just a 1-
minute opening statement?
    Mr. Shadegg. The chair understands that that could be done 
by unanimous consent as well as what the chair has suggested. 
So if you want to make that as a substitute proposal.
    Mr. Markey. I would amend the unanimous consent request of 
the chairman to amend it so that every member would have the 
right to make a 1-minute opening statement and then we would 
proceed.
    Mr. Shadegg. This is Mr. Markey being incapable of 
retaining himself from at least a 11-minute opening. Is there 
an objection to the substitute proposal?
    Mr. Cox. Mr. Chairman, reserving the right to object, I 
think we have got important business to do here. We have got to 
mark up this legislation. I appreciate your willingness to 
extend to me as chairman and to others as chairs and ranking 
members the opportunity to make opening statements, but even if 
we just do it for 1 minute and we include the full subcommittee 
here, I think we are going to use up time that members would 
like to have to ask questions of these witnesses. The 1-minute 
opening statements will be designed to be content free at that 
short limit. So I would leave it to your discretion what to do, 
but that is the basis of my reservation.
    Mr. Shadegg. Sounds like the gentleman has posed an 
objection to the unanimous consent request.
    Mr. Cox. I would leave it to you to object or approve.
    Mr. Shadegg. Would the gentleman from Massachusetts--
    Mr. Cox. Withdraw my objection.
    Mr. Markey. But then I would object to the unanimous 
consent request that we waive our right to make our 3-minute 
opening statements.
    Mr. Shadegg. Here is what I would propose. How about if the 
chairman of the Subcommittee on Emergency Preparedness Response 
limits his opening statement to 2 minutes, yields 1 minute to 
you, and we limit all of the remaining opening statements? I 
guess I get 5 minutes. I will limit my opening statement to 4 
minutes. I will yield 1 minute to you, and we limit the 
remaining opening statements by the remaining chairs and 
ranking members as proposed.
    Mr. Markey. So--
    Mr. Shadegg. So you get 1 minute.
    Mr. Markey. So you would single me out.
    Mr. Shadegg. I think you singled you out.
    Mr. Markey. As the one person who--let's count how many 
members we have here who are not chairmen or ranking members. 
What are we talking about? I see 11 minutes. Is 11 minutes a 
lot to ask for the regular members to be given to speak?
    Mr. Frank. Not when you subtract the time it will take to 
further discuss this; it will probably be--net, it would be 
rather less.
    Mr. Markey. We are not talking about a long time. We are 
not at full committee. We are at subcommittee. I see 11 people 
who don't qualify to give the longer statement that you 
suggest. So that is my only--
    Mr. Shadegg. The gentleman--
    Mr. Pascrell. I will stand corrected, but I think this is 
our third meeting on BioShield. I don't think there is a need 
for any opening statements.
    Mr. Shadegg. It is our third.
    Mr. Pascrell. If we open any more times, we will be closed.
    Mr. Shadegg. It is our third meeting on Project BioShield, 
or third hearing. So the gentleman's point is well taken. Does 
the gentleman from Massachusetts insist on his request for an 
opening statement, or is he prepared to withdraw it?
    Mr. Markey. Well, here is the point, is that this is a big 
day for the committee, because although the gentleman from New 
Jersey may have forgotten--
    Mr. Shadegg. The gentleman gets 8 minutes to talk about how 
big a day this is.
    Mr. Markey. This is the first time we have ever had any 
Homeland Security Department people before us on this issue, so 
that is a big day for us. The gentleman from New Jersey may 
have forgotten that. So that is my only point. If we don't want 
to stay around all afternoon to finally get our--
    Mr. Shadegg. In requesting the--
    Mr. Markey. I give. I give. All right. We will go your way. 
You win.
    Mr. Shadegg. Without objection, so ordered.
    Good afternoon. This is the third in a series of hearings 
on Project BioShield, a proposal that seeks to prepare our 
Nation for chemical, biological, radiological, or nuclear 
attacks. Today's hearing will focus specifically on the 
intelligence and information gathering process that the 
Department of Homeland Security will use to determine which 
threats are most serious and merit Federal investment in 
countermeasures.
    This hearing is an outgrowth of the bipartisan nature of 
the Select Committee on Homeland Security, as a number of 
requests were made on the minority side at last month's full 
subcommittee hearing on Project BioShield to gain the 
perspective of Department of Homeland Security personnel, 
particularly the Intelligence Analysis and Infrastructure 
Protection Directorate. Today we have two witnesses from the 
Department.
    Clearly we are living in a very dangerous era. We know that 
the September 11th terrorists were interested in crop dusters 
by which to spread biological agents. We have seen the video 
from Afghanistan showing al Qaeda's experimentation with nerve 
agents on dogs. We have read just this week news accounts about 
a new CIA report which indicates that al Qaeda has a goal of 
using weapons of mass destruction. We are dealing with sick 
people who are willing to go to any length to injure and kill 
innocent Americans.
    But we are also living in an era of transformation. 
Technology is proceeding at a mind-boggling pace. Thirty years 
ago, we did not know what biotechnology or genomics were. But 
combined with our country's unparalleled leadership in 
semiconductors and computing power, we are on the verge of a 
breathtaking breakthrough in the field of biology.
    The introduction of the Project BioShield Act of 2003 is 
not only a recognition of the potential danger proposed by 
chemical, biological, radiological, and nuclear attacks, but 
also a realization of the ingenuity and resources of America's 
greater scientific minds that will help us produce solutions to 
this danger.
    The Project BioShield Act, which our full committee will 
mark up shortly, produces these solutions through three 
important provisions:
    First, the bill provides the Secretary of Health and Human 
Services the flexibility and the authority to unleash 
innovative minds at the National Institutes of Health to 
conduct research and development on countermeasures for 
chemical, biological, radiological, and nuclear attacks.
    Second, it provides a reliable funding stream from which 
the Federal Government will be able to purchase these 
countermeasures.
    And third, it provides for the emergency use of these new 
medical products.
    Today we will explore issues related to section 3 of the 
act which defines the Secretary of Homeland Security's threat 
assessment responsibilities. Under the bill, the Secretary 
shall, one, assess current and emerging threats of chemical, 
biological, radiological, and nuclear agents; and two, 
determine which of these agents present a material threat 
against the United States population.
    This determination of a quote, ``material threat,'' closed 
quote, is a critical trigger to eligibility for purchasing the 
Strategic National Stockpile under the specific funding 
mechanism in the bill. There has been bipartisan concern that 
the Department of Homeland Security may still be struggling in 
intelligence and information gathering. The grace period for 
the Department is running out. And I expect the full committee 
to be holding future hearings on making sure that the 
Department of Homeland Security meets its analytic 
responsibility under the Homeland Security Act.
    Make no mistake, the continued success of our ongoing fight 
against the numerous threats to our homeland will largely be 
determined by the quality of our intelligence. We simply cannot 
afford to deploy gates guards and guns in every locality across 
our country to prepare for terrorism. Indeed we must be smarter 
and more nimble than our foes and able to anticipate their 
moves before they can be a threat to American lives by using 
our superior technological capabilities.
    I look forward to hearing our witnesses' assessment of this 
capability. And with that, I call upon the ranking member of 
the Preparedness Subcommittee, the gentleman from Mississippi 
Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Thank you for your 
cooperation in allowing this hearing to go forward today.
    Mr. Tolbert, I know we have made prior attempts to get you 
before this committee. It is a pleasure to finally have you 
with us today.
    Mr. Redmond, it is a pleasure to have you before this 
committee as well.
    Gentlemen, in order for this committee to do its job 
effectively and provide the necessary oversight to assist the 
Department in its duties, it is absolutely essential that this 
committee be able to engage DHS and have real discussion and 
exchange of ideas. After all, we both have the same goal of 
securing America in mind. It is my hope that today's hearing 
would be productive and that we can begin to have some 
constructive dialogue so that Congress can do its job better.
    I want to begin by commending you on your efforts thus far 
to secure America. There is no doubt in my mind that operations 
like TOPOFF II and similar drills are necessary and, if 
successful, can significantly enhance our Nation's preparedness 
and ability to respond to potential terrorist attacks.
    But today I want to address preparedness at its most basic 
level. Gentlemen, in the coming weeks, this committee will be 
tasked with marking up the BioShield legislation. I have said 
in previous statements that I believe that project BioShield is 
a worthwhile project that will hopefully aid this Nation in 
rapidly transferring technology into products that can be used 
to protect individuals against biological and chemical agents 
used in weapons of mass destruction. However, I don't think 
this committee can in good faith put its mark on this 
legislation unless and until we have the relevant information 
at our disposal that can help us decide exactly what vaccines 
are needed and in what quantity.
    The entire premise of this country going to war with Iraq--
excuse me. The entire premise of this country going to war with 
Iraq was that we needed to rid this rogue nation of weapons of 
mass destruction, be they nuclear, biological or chemical. 
Reluctantly this country sent soldiers into harm's way to 
achieve this goal. Today the war is over. Saddam is out of 
power. However, to this date no weapons of mass destruction 
have been discovered. In my mind this can only mean one of two 
things: that the administration fabricated Iraq's weapons of 
mass destruction capacity and we sent our brave men and women 
into war on false pretenses; or, two, these weapons did and 
still do exist, but they have fallen into hands of other rogue 
nations neighboring Iraq, or terrorists. If the latter scenario 
is indeed the case, then that makes this job at DHS and our job 
on the committee that conducts deputy oversight extremely 
important.
    If we are to succeed in our mission to secure America, we 
must have your cooperation. This committee cannot be absolutely 
sure that the Department has the tools it needs to address 
threats lurking out there unless we know exactly the nature and 
significance of the threats that the Department believes exist.
    Bottom line: If this Congress is going to approve 
taxpayers' dollars to be used to assist with the development of 
BioShield, we need to know what vaccines to spend the money on. 
And in light of the current threats posed to this country, we 
also need to know what information the Department's assessment 
of need is based on.
    So today the members of the committee may ask some very 
real questions. It is my hope that we will get some real 
answers. Once again, gentlemen, it's a pleasure to have you 
join us today and I look forward to your testimony.
    Mr. Shadegg. I thank the gentleman for his thoughtful 
statement. This is, as I already noted, a joint subcommittee 
meeting of both the Emergency Preparedness and Response 
Subcommittee and the Subcommittee on Intelligence and 
Counterterrorism. I intend to make it a joint hearing and share 
the chair. So at this point I would turn the chair over to the 
vice chairman of that subcommittee, Mr. Sweeney of New York.
    Mr. Sweeney. [Presiding.] Thank you, Chairman Shadegg. I 
welcome our guests and witnesses, Mr. Tolbert, Mr. Redmond.
    On behalf of the Subcommittee on Intelligence and 
Counterterrorism chairman, Jim Gibbons, who unfortunately was 
unable to be here today because of a prior appointment, I am 
going to submit to the record a full statement from Chairman 
Gibbons and simultaneously, if I can, in order to keep with the 
spirit of getting to the witnesses and having this meaningful 
discussion today, I will also simultaneously submit my own 
statement.
    For the record I will paraphrase very briefly for you 
Chairman Gibbons' statement, and in part my own, in which we 
agree that the Department of Homeland Security has the 
responsibility to merge under one roof the capability to 
anticipate, preempt, and deter threats to the homeland whenever 
possible. And this responsibility will only increase with the 
enactment, I believe and Chairman Gibbons believes, of Project 
BioShield, H.R. 2122.
    Finally, we are committed in the subcommittee to work 
together with DHS to ensure that our Nation's resources are 
allocated properly and to protect the citizens of the United 
States. As I said, I will submit the Chairman's statement in 
full, and I will submit my own.
    And I want to just make these observations and comments as 
one who serves on the Select Committee and also serves on the 
Appropriations Subcommittee on Homeland Security, that I think 
it is important, it has been obvious in all of the various 
hearings that have been held throughout Congress, that we 
continue to work as quickly as we can to integrate and 
implement a seamless and comprehensive system, as the President 
had called for a year ago; that we do that deliberatively but 
as forthrightly as we possibly can. And that I essentially 
believe that the purpose of today's hearing--and we need to 
stay focused on this because it is the next important step--is 
to establish whether it is the appropriate time, the right 
time, to move forward with Project BioShield--which I believe 
it is--or not, and continue to work on establishing and 
enhancing that system.
    With that, I want to recognize the ranking member of the 
Subcommittee on Intelligence and Counterterrorism, Ms. McCarthy 
from Missouri for her opening statement.
    [The statement of Mr. Gibbons follows:]



    PREPARED STATEMENT OF THE HONORABLE JIM GIBBONS, CHAIRMAN, 
SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM, AND A REPRESENTATIVE 
IN CONGRESS FROM THE STATE OF NEVADA
    The Department of Homeland Security has the responsibility to merge 
under one roof the capability to anticipate, preempt and deter threats 
to the homeland whenever possible. DHS is intended to serve as a 
central hub of intelligence analysis and dissemination, working with 
agencies throughout the federal government such as the CIA, DIA, FBI 
and NSA, and other key intelligence sources.
    DHS is also responsible for assessing the vulnerabilities of the 
nation's critical infrastructure, such as energy and transportation 
sources; information, computer and telecommunications networks; banking 
and finance systems; health and emergency services; and systems vital 
to our national security, public health and safety, economy and way of 
life. The DHS is the lead agency in evaluating these vulnerabilities 
and coordinating with other federal, state, local, and private entities 
to ensure the most effective response.
    The Project Bioshield Act of 2003, H.R. 2122, charges the DHS with 
the responsibility of assessing current and emerging threats from 
chemical, biological, and nuclear agents, and determining which of 
these threats presents a material threat against the U.S. population. 
Additionally, H.R. 2122 provides that the Secretary may support, 
research and develop biomedical countermeasure products based on 
continuous systematic threat assessment.
    The development of countermeasures to material threats in the U.S. 
is dependant upon timely, reliable intelligence information. The 
decisions on which countermeasures take manufacturing precedence are 
difficult and based on critical assessment of the most imminent threat. 
The DHS must have the proper tools to complete their tasks 
successfully.
    It is my goal in this committee to work together with the 
Department of Homeland Security and my colleagues in the House of 
Representatives to ensure our nation's resources are allocated properly 
to protect the citizens of the United States.

    Ms. McCarthy. I thank the Chairman. I also thank Chairman 
Gibbons and Ranking Member Thompson for this meeting today.
    I would like to thank Director Tolbert and Assistant 
Secretary Redmond for being here. We look forward to your 
testimony. It will help us in our role to do better in what the 
President has asked us to do, which is to consider Project 
BioShield, the initiative, and the process of building a 
defense against terrifying prospects of a biological weapons 
attack.
    In order to effectively consider how best to accomplish the 
goal of project BioShield, it is essential that Congress make 
its decision based upon the best available intelligence and the 
analysis of that intelligence of the nature and degree of 
threat which faces us.
    What kind of biological attacks are we likely to face? What 
is the chance of such an attack? Where would such an attack 
come from? And what will we need to respond to it?
    These are questions that can only be answered by the 
mapping of the best available secret and open source 
information about the plans, intents, and capabilities of our 
enemies against the vulnerabilities of our population to 
biological attack.
    It is a particularly critical issue today. The President's 
proposal predates the war in Iraq, which was planned in part to 
diminish the threat level from biological weapons by taking 
them away from Saddam Hussein before he could provide them to 
terrorists and others who would do harm. Recent press reports 
raise the serious possibility that stockpiles of biological 
weapons cannot be found and may now be in the hands of 
terrorists.
    I look forward to our witnesses today addressing the 
situation and providing us their assessment of whether there is 
now a greater threat from biological weapons than there was 
when project BioShield was first conceived. If so, perhaps we 
should consider increasing the pace and the scope of BioShield.
    Our role is also as an oversight role in our responsibility 
to the Department of Homeland Security. Under the Homeland 
Security Act, it will have even a greater role under the 
BioShield bill that is now drafted. In essence, the Department 
in general, and in particular the Directorate of Information 
Analysis and Infrastructure Protection has the responsibility 
for continued assessment of these threats. At present we have 
little information about whether the Department is ready to 
take on this task. Secretary Ridge's testimony before our full 
committee last month left one central question unanswered: Is 
the department ready to take on this task?
    I look forward to your testimony, gentlemen, and to hearing 
from you on this vital issue.
    Thank you very much, Mr. Chairman. I would yield back the 
balance of my time.
    Mr. Sweeney. The gentlelady yields back the time. I want to 
thank her for her very thoughtful and insightful statement.
    With that, we will go to our witnesses and--I stand 
corrected. Before we go to our witnesses, I am remiss if I 
don't recognize the full committee chairman, the gentleman from 
California and principal mover on this particular piece of 
legislation, Chairman Cox.
    Mr. Cox. Thank you, Vice Chairman Sweeney. I will be very 
brief because I, like others here, want to hear from this 
distinguished panel. But I want to thank you, Mr. Vice 
Chairman, Chairman Shadegg, Ranking Members Thompson and 
McCarthy, for your work in organizing this joint subcommittee 
hearing. I think this is the right venue for us to consider 
this aspect of multibillion-dollar BioShield legislation that 
we will mark up next week.
    Before we mark up this legislation, it is important for us 
to understand the existing infrastructure and the 
infrastructure that is now being built at the Department of 
Homeland Security to ensure that the United States Government, 
and in particular DHS, can fulfill its mandate under the 
BioShield program.
    The BioShield legislation as it is presently before us 
would charge the Secretary of Homeland Security with doing two 
things: first, assessment; assessing current and emerging 
threats from chemical, biological, radiological weapons; and 
second, determining which of those threats is, vis-a-vis the 
U.S. population, a material threat. Only if the Secretary makes 
that decision of materiality can a vaccine or an antidote be 
funded under the BioShield legislation. So this capability and 
this responsibility within the Department is pivotal.
    The threat assessment role for the Department is in keeping 
with the responsibilities that have already been placed in law 
under the Bioterrorism Preparedness Act of 2002 and under the 
Homeland Security Act.
    One of the main reasons for creating the Department of 
Homeland Security was to gather under one roof all of the 
information, all the resources, all the expertise to analyze 
potential terrorist threats. For that reason, the Homeland 
Security Act created within the Department the Directorate of 
Information Analysis and Infrastructure Protection. It is the 
job of the IAIP Directorate to identify and assess these 
terrorist threats.
    The Homeland Security Act tasked the Department's Science 
and Technology Directorate with supporting the Information 
Analysis subdirectorate in this role. The S&T Directorate will 
play an especially important part in helping identify the most 
dangerous bioterror threats if the BioShield legislation 
presently before us is enacted.
    Today we are fortunate to have with us Paul Redmond, the 
Department's Assistant secretary for Information Analysis, and 
Eric Tolbert, Director of the Response Division of the 
Department's Emergency Preparedness and Response Directorate.
    Today's witnesses are uniquely positioned to describe what 
will be needed for the Department to fulfill its anticipated 
role under this new legislation. In considering the material 
threat determination provision of this bill, we have a context 
there which is to develop the Department's progress in meeting 
its mandate to develop a threat assessment capability. And we 
are hoping, gentlemen, that you will provide that for us today.
    I hope that during this hearing we will gain a clear 
understanding of where the Department is today, where it is 
going, where in particular we are with our assessment 
capability and what, if any, new tools you need in the 
BioShield legislation to accomplish the mission of that 
program.
    I thank you, Mr. Chairman.
    Mr. Sweeney. I thank you, Mr. Chairman, for your leadership 
and your statement.
    Mr. Sweeney. And I would like to recognize the ranking 
member of the full Select Committee, the gentleman from Texas, 
Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Welcome, Mr. Tolbert, Mr. Redmond. We appreciate your 
presence here today. I have really two concerns that I hope you 
will address today. The first is that to date none of the 
committees of jurisdiction over the BioShield legislation, to 
my knowledge, have had a full briefing on the nature of the 
bioterrorist threat. And I think it is essential in crafting 
this legislation to have the knowledge, the background of the 
nature of that threat.
    I have serious concerns personally about the bill in its 
current form because I don't believe it is aggressive enough. 
But I think it is important for this committee to have a full 
briefing regarding the threat.
    Now, I hope, Mr. Redmond, you are prepared to do that 
today, even if it requires us to go into a closed session. But 
if the threat is as serious as some would suggest, this 
committee needs to hear about it, and we need to be motivated 
to craft this legislation to be as strong as possible. And I 
for one believe that, in addition to the authorization in the 
bill, that we should give the Secretary the additional tool of 
being able to fund government research through the Center for 
Disease Control to develop these vaccines as rapidly as 
possible as well.
    Another issue that I think is critical and is the one 
Chairman Cox raised; and that is this legislation will give you 
the authority to determine if there is a material threat from a 
biological agent and to make a recommendation to the Secretary 
and to the President. In order to do that, you are going to 
have to have the capability internally to accomplish that task.
    Just this morning before the Subcommittee on Intelligence 
and Counterterrorism it was very clear from some of the 
witnesses who appeared there that much of this expertise is now 
being collected in the Terrorist Threat Integration Center, an 
entity that resides outside of the Department of Homeland 
Security; in fact, apparently outside of any current department 
of the government.
    It seems to me that if you are going to have the capability 
to have an analytical ability to assess a material threat from 
a biological act, you are going to need the very tools that are 
now collected within TTIC. So I would appreciate very much if 
you would address what the current status of your capability is 
within the Department; and if it is not there, whether or not 
there is a commitment if this Congress passes the 
appropriations legislation that is currently before us, you 
will be able to put together that capability within the 
Department.
    Again, I thank you for being here. It is a very critical 
point in time for this committee in carrying out our 
responsibility and our jurisdiction over the legislation that 
will be before us this week and next.
    Thank you, Mr. Chairman.
    Mr. Sweeney. I thank the ranking member.
    [The information follows:]

PREPARED STATEMENT OF THE HONORABLE BOB ETHERIDGE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NORTH CAROLINA

    Thank you, Chairman Shadegg and Ranking Member Thompson, and 
Chairman Gibbons and Ranking Member McCarthy, for holding this hearing. 
Bioterror threats may sound like something out of science fiction, but 
our personal experiences with the anthrax attacks in 2001 clearly 
demonstrate the danger and our vulnerabilities. I appreciate the 
opportunity to hear our distinguished panelists discuss the Department 
of Homeland Security's plans to defend against and respond to these 
attacks while maintaining FEMA's original mandate to respond to natural 
disasters. It is good to see Eric Tolbert here on behalf of the 
Department of Homeland Security. He did great work for North Carolina 
as the state's Director of Emergency Management.
    In addition to assessing the threats overseas, I think it is 
critical that the Directorate work with other government agencies such 
as the Federal Bureau of Investigation to track domestic bioterror 
threats. Evidence from the anthrax attacks clearly points to not only a 
domestic source for the pathogen, but also suggests domestic 
perpetrators.
    Although the best defense against terrorism is to prevent attacks, 
I hope the witnesses will address the current status of our response 
capabilities, especially in terms of the public health infrastructure. 
In his testimony last month, Secretary Ridge said that the TOPOFF II 
exercise exposed some important problems with the public health 
response in areas ranging from communications to liability issues for 
volunteers.
    It has taken the Committee an inordinate amount of time to begin 
our oversight duties, and I appreciate the efforts of both the Chairman 
and Ranking Member to hire a top-notch staff and resolve jurisdictional 
issues. We need to move forward as quickly as possible with our 
business of protecting our country.
    The United States must be prepared to respond to all threats, 
whether natural or man-made. The Department of Homeland Security has a 
huge task before it to coordinate both the prevention and response 
activities of the government, and I appreciate the opportunity to learn 
more about their efforts.

    Mr. Sweeney. Let me inform members that prior to going to 
the testimony of our witnesses we have been notified that 
within about 10 minutes or so, sometime shortly before that, 
there will be a series of three votes, followed by 10 minutes 
of debate, followed by two votes, which means we will have a 
significant pause in this particular hearing. And I will notify 
the members and look to adjourn or look to recess this hearing 
with about 6 minutes remaining in the vote on the floor so that 
we all can get there.
    And with that, I want to welcome our witnesses for being 
here and thank them for their time in being here. And I will 
recognize, so we can quickly get to the testimony, Mr. Redmond, 
Paul J. Redmond, who is Assistant Secretary for Information and 
Analysis at the Department of Homeland Security.
    Mr. Sweeney. Mr. Redmond, welcome, and thank you for being 
here.

   STATEMENT OF MR. PAUL J. REDMOND, ASSISTANT SECRETARY FOR 
     INFORMATION ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Redmond. Thank you, Mr. Chairman, for having me here 
today. I am Paul Redmond, Assistant Secretary for Information 
Analysis. I have been on the job somewhere between 2 and 3 
months, before that I was retired, and then I worked for the 
CIA.
    Mr. Sweeney. I would ask the gentleman to speak up.
    Mr. Redmond. Is this better? Before that I was retired for 
awhile, before that I worked for the CIA for 30 years.
    I have no prepared statement but would welcome--be able to 
answer questions on how we would assess the bioterrorism threat 
to help the government, the President, and the rest of the 
government determine how to allocate resources against this 
threat.
    I ask would it be appropriate at this stage to answer, 
first off, Mr. Turner's questions which he posed in his 
statement?
    Mr. Sweeney. You have about 4 minutes remaining on your 
opening statement, Mr. Redmond, so you use it at your own 
discretion.
    Mr. Redmond. Mr. Turner, I am not prepared to go into full 
depth in a classified sense today, to give a full assessment of 
our view of the bioterrorism threat. I am simply not prepared 
to do that. I would certainly welcome the opportunity to come 
before this committee in a classified context to give that 
assessment sometime in the future.
    Secondly, on the question of TTIC's expertise as opposed to 
our expertise, we have resident right now in Information 
Analysis, a lady we brought--I took the liberty of inviting to 
come along with me Susan Allen, who is a microbiologist 
assigned to us from Lawrence Livermore Laboratory. She would 
form the core of our effort in analyzing this and be able to 
reach back to all the labs, academia, Fort Detrick, et cetera. 
So we do have a building capability to address this threat.
    Thank you, Mr. Chairman.
    Mr. Sweeney. Thank the gentleman.
    Mr. Tolbert is the Director--Eric Tolbert is the Director 
of the Response Division.
    Mr. Pascrell. I would like an interpretation of the 
statement that was just made, in English. What are we talking 
about?
    Mr. Sweeney. What I would suggest is we hold our questions 
and allow the witnesses to make their opening statements. In 
lieu of an opening statement, Mr. Redmond began a debate, a 
discussion, in response to Mr. Turner's opening statement. I 
would suggest that we get to those as quickly as we can, but 
first allow the other witness--
    Mr. Pascrell. I understand that his opening statement was 
that he has no opening statement.
    Mr. Sweeney. I believe you are correct in that there is no 
formal opening statement. Mr. Redmond is welcome to submit an 
opening statement for the record at some subsequent period. But 
I suggest that we get to those issues when we go to questions 
and answers.
    Mr. Sweeney. With that, I would like to introduce Eric 
Tolbert, who is the Director of the Response Division, 
Emergency Preparedness and Response Directorate, at the 
Department of Homeland Security. Mr. Tolbert, welcome.

  STATEMENT OF MR. ERIC TOLBERT, DIRECTOR, RESPONSE DIVISION, 
EMERGENCY PREPAREDNESS AND RESPONSE DIRECTORATE, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Tolbert. Thank you, Mr. Chairman. Good afternoon, Mr. 
Chairman and members of the committee. I am Eric Tolbert. I am 
Director of the Response Division for the Emergency 
Preparedness and Response Directorate of the Department of 
Homeland Security. I am honored to appear before you today to 
discuss our Department's role in Project BioShield.
    And I do sincerely apologize for not being able to attend 
the last scheduled hearing of this committee. As a result of 
the disasters that occurred the prior week, we had a health and 
safety issue that arose, and due to deployment of a lot of my 
key staff, it required my personal attention to deal with it. I 
do apologize for that situation. And despite a cold today, I am 
going to do my best to answer your questions. I am honored to 
be here.
    Before I discuss the Emergency Preparedness and Response's 
role in BioShield, I want to give you a little broader 
perspective about our overall mission. Members of Congress have 
been good to us in our years as the independent agency, the 
Federal Emergency Management Agency, as we performed our 
traditional role of preparing for, responding to, recovering 
from, and mitigating losses from future disasters of all kinds, 
all hazards.
    The Emergency Preparedness and Response Directorate's 
mission is very similar in that we lead the Nation to prepare 
to mitigate the effects of, respond to, and recover from major 
domestic disasters, both natural and man-made, including acts 
of terrorism. So our role really has not changed significantly; 
in fact, it has expanded. And the Department as a whole is 
committed to helping our country and our citizens in time of 
disaster.
    Preparing our citizens for the risks associated with the 
acts of terrorism, and bioterrorism specifically, poses a 
significant challenge for our new Department. And the emergency 
management community plays an important role in facing this 
challenge. That is why President Bush announced Project 
BioShield in his January 28th State of the Union address. And 
this proposed program will make us directly responsible for 
first acquiring critically needed vaccines or medication for 
biodefense or medical countermeasures, ensuring the adequacy 
and timely distribution of the Nation's stockpiles of 
pharmaceutical, vaccine, and other medical supplies. And 
thirdly, remove barriers to the development and production 
process.
    The Department's role is to coordinate with the Department 
of Health and Human Services to trigger the use of Project 
BioShield when adequate countermeasures do not exist for a 
particular threat. And along with the FDA, the Department must 
declare that the chemical, biological, radiological, or nuclear 
threat is real and that it requires the use of BioShield 
provisions.
    For this intelligence assessment, we will be looking to the 
Information Analysis and Infrastructure Protection Directorate 
of our Department, and they are responsible for the overall 
assessment and coordination with other Federal agencies in the 
intelligence arena. Our Department is responsible for funding 
the program's activities and finally making the products 
available in a timely manner through the Strategic National 
Stockpile to communities that are impacted by acts of terrorism 
or other types of disasters.
    Our Department is committed to working very closely, 
continuing to work very closely with the various components of 
the Department of Health and Human Services as we identify 
contracting and procurement mechanisms with the pharmaceutical 
industry, certify the safety and efficacy of developing new 
medicines, and make recommendations for programmatic progress 
in areas of improvement.
    Emergency Preparedness and Response has assumed the 
responsibility of maintaining and deploying the Strategic 
National Stockpile together with the Centers for Disease 
Control and Prevention. The Strategic National Stockpile, which 
is made up of pharmaceuticals, vaccines, and medical supplies, 
is housed in various areas around the country in case of 
emergencies. And it is in those locations to ensure a rapid 
deployment, and our goal and our standard is a 12-hour response 
anywhere in the United States.
    Once development and production of needed pharmaceuticals 
and vaccines is completed through BioShield, all of these new 
products or commodities will be housed within the Strategic 
National Stockpile.
    I hope this information provides sufficient background on 
our work to prepare this Nation in the event of a biological 
attack. The all hazards preparedness and response activities, 
practiced so many times by States and local governments along 
with FEMA, serves as a strong foundation, we believe, for the 
work we have been tasked to handle under the new Department of 
Homeland Security.
    I would be pleased to answer any questions the committee 
members may have. Thank you, sir.
    [The statement follows:]

      PREPARED STATEMENT OF MR. PAUL REDMOND AND MR. ERIC TOLBERT

    Good afternoon. We are honored to appear before you today to 
discuss our Department's role in bio-terrorism preparedness in general, 
and BioShield specifically. Preparing our citizens for a bio-terrorism 
event is one of the significant challenges the Department faces.
    The Emergency Preparedness and Response Directorate:
    First we want to provide you some background about the Emergency 
Preparedness and Response Directorate, its Response Division, and our 
role in the Department. We are proud to join the Department, and we 
want to assure the Members of this Subcommittee that EP&R will not lose 
sight of its main responsibility of helping people and communities 
affected by disasters. The mission statement of EP&R,
        To ``to lead the Nation to prepare for, mitigate the effects 
        of, respond to, and recover from major domestic disasters, both 
        natural and man-made, including acts of terrorism,''
    contains the same core responsibilities that guided the Federal 
Emergency Management Agency (FEMA) as an independent Agency.
    The Response Division coordinates and implements the federal 
response to Presidentially declared disasters. During fiscal year 2002, 
FEMA expended nearly $3.9 billion in disaster funds to aid people and 
communities overwhelmed by disasters, which included earthquakes, 
floods, ice and winter storms, fires, hurricanes, tornadoes, and 
tropical storms. FEMA responded to 42 major disasters involving 37 
States and 4 U.S. Territories.
    The Response Division is charged with developing and maintaining an 
integrated, nationwide operational capability to respond to and recover 
from disasters and emergencies, regardless of their cause, in 
partnership with other Federal agencies, State and local governments, 
volunteer organizations, and the private sector.
    The risks associated with acts of terrorism pose a significant 
challenge for EP&R. FEMA's rapid and decisive response to the events of 
September 11 demonstrated the Agency's role in consequence management. 
As a result, the Nation is looking to the emergency management 
community--and EP&R in particular--to face this challenge. Augmenting 
and maintaining the Strategic National Stockpile, and strengthening 
their future capacity, to ensure there are adequate supplies in the 
event of a national emergency are important steps in meeting the 
challenge.
    Project BioShield
    In his State of the Union Address, President Bush announced Project 
BioShield as an effort to develop and make available modern, effective 
medical countermeasures, especially vaccines and anti-toxins to protect 
against a biological, chemical, or radiological/nuclear threat agents. 
This new Project will be built on the many health advances in basic 
medical science and pharmaceutical manufacturing technology that our 
society has enjoyed in recent years.
    Specifically, Project BioShield will ensure that resources are made 
available to pay for advanced development and large-scale acquisition 
of ``next-generation'' medical countermeasures as soon as scientists 
can assert that the envisioned countermeasure is reasonably likely to 
be licensable, and that large-scale manufacturing of a safe and 
effective product is reasonably feasible, within the near term. 
President Bush has proposed creating a mandatory funding authority to 
spur development of medical countermeasures. This authority will help 
ensure that the private sector contributes to this effort by ensuring 
them that if they can produce a needed countermeasure, the government 
can and will purchase it.
    Second, Project BioShield will strengthen the capabilities of the 
National Institutes of Health (NIH) by expediting research and 
development on medical countermeasures based on promising, recent 
scientific discoveries. The new authorities provided to NIH would apply 
only to support research and development of biomedical countermeasures 
against bioterrorism threat agents. Funding of grants and contracts 
will remain subject to rigorous scientific and peer review, but 
expedited peer review procedures could be used when appropriate.
    Finally, Project BioShield will enable the Food and Drug 
Administration (FDA) to make promising treatments available in 
emergency situations if alternative treatments are not available. This 
authority is not intended to alter the FDA's thorough review before 
licensing a product. Rather, BioShield authorities will supplement the 
traditional FDA licensing process to ensure that we could respond 
effectively in a crisis to use medical countermeasures that experts 
have judged safe and effective. These countermeasures will be subject 
to Government controls, and can only be used after certain 
certifications have been made. Furthermore, all civilian use would be 
voluntary and the benefits of the treatment in question to be used in 
an emergency situation must outweigh the expected risks.
    We must continue to encourage scientific initiative and creativity 
to ensure rewards for innovators who bring needed countermeasures to 
the American public. And, the breakthroughs resulting from Project 
BioShield are likely to have important spillover benefits in preventing 
and treating other diseases, and in strengthening our overall 
biotechnology infrastructure.
    The Department of Homeland Security is working closely with the 
Department of Health and Human Services and the Department of Veterans 
Affairs, as those entities are equipped to identify contracting and 
procurement issues with the pharmaceutical industry; to assess when new 
countermeasures can be made that will be safe and effective; and to 
make recommendations for programmatic progress and areas of 
improvement. EP&R will be responsible for the Department's role as 
proprietor of the budget authority under BioShield (we estimate the use 
of nearly $900 million in the President's fiscal year 2004 Budget) to 
allow the federal government to purchase critically needed vaccines or 
medication for biological, chemical, and radiological/nuclear defense 
measures, and to ensure the adequacy of the nation's stockpiles of 
pharmaceutical, vaccine and other medical supplies, and to promote 
removal of barriers to the development and production processes.
    Emergency Preparedness and Response Bio-preparedness Activities
    The Department of Homeland Security's work in the bio-preparedness 
arena includes developing an environmental surveillance system and 
associated response plans; the Bio-Watch surveillance program; 
participating in Metropolitan Washington Council of Governments Bio-
terrorism Task force; and participating in major bio-terrorism response 
exercises such as TOPOFF II and Exercise Silent Night.
    As one of its responsibilities, EP&R has assumed responsibility for 
the National Disaster Medical System (NDMS). This system assists State 
and local governments by providing primary care to disaster victims in 
the field, patient evacuation from disaster areas, and definitive care, 
when needed. The three other federal partners for NDMS are the 
Departments of Health and Human Services, Defense and Veterans Affairs.
    NDMS is a nationwide medical response system to supplement State 
and local medical resources during disasters and emergencies and to 
provide backup medical support during an overseas conflict. The System 
is activated in response to all-hazards, thus preparing the teams to 
respond to any event including a terrorist event that may be chemical, 
biological or nuclear in nature.
    EP&R has also assumed the responsibility, together with the Centers 
for Disease Control and Prevention, of maintaining and deploying the 
Strategic National Stockpile. The President's budget for Fiscal Year 
2004 includes a request for $400 million to maintain the Strategic 
National Stockpile. The Strategic National Stockpile is made up of 
pharmaceuticals, vaccines and medical supplies housed in various areas 
around the country in case of emergencies. By dispersing the assets, 
the necessary supplies can be delivered to any disaster site within 12 
hours. Once development and production of needed pharmaceuticals and 
vaccines is completed through BioShield, these new items may be placed 
in the Strategic National Stockpile.
    Bio-Watch, an inter-agency initiative involving the Department of 
Homeland Security, Department of Energy, the Department of Defense, and 
the Environmental Protection Agency, is developing sophisticated air 
monitoring and analysis systems to detect large-scale releases of 
biological agents. Our role is to develop response plans that are more 
pro-active and responsive in managing the consequences of a biological 
or chemical attack.
    The Metropolitan Washington Council on Governments' Bioterrorism 
Task Force provides a national model for integrated bio-terrorism 
response planning. The effort focusing on the National Capital Region 
provides a structure for Federal, State, local, private sector and 
cross-jurisdictional coordination, communication, and effective 
detection and response.
    Finally, EP&R is working closely with other federal agencies, State 
and local contacts on two significant bioterrorism Exercises: The Top 
Officials 2 (TOPOFF II) exercise, which is occurring this week, is a 
major counter-terrorism exercise focusing on the nations response to 
bioterrorism. Participation in TOPOFF II and other bioterrorism 
exercises enables the response elements to be better prepared to deal 
with a terrorist attack involving biological, chemical or radiological 
weapons
        Closing
    While we have not limited our remarks to BioShield, we hope this 
information provides you sufficient background on our work to prepare 
this Nation in the event of a biological attack. We would be pleased to 
answer any questions the Subcommittee members may have.

    Mr. Shadegg. [Presiding.] Thank you very much for your 
testimony. I understand that you have reserved time. It seems 
to me that we have members here who want to hear precisely what 
the Department's position is. I would appreciate it if you 
would take the balance of your time to address the specific 
topic of this hearing; and that is, does the Homeland Security 
Act of 2002 give your Department, the Department, the tools it 
needs to determine which biowarfare threats are most serious? 
Could you please do that?
    Mr. Redmond. Thank you, Mr. Chairman.
    Yes, I believe the act does give us the authorities and the 
capabilities to do that. We are establishing an analytical 
capability with expertise that will have all-source access to 
information. We will take that information and apply it to what 
the possible threats are. We, first of all, try to figure out 
who perhaps has these pathogens, who is trying to get them; if 
they got them, could they use them; and how they could be 
weaponized.
    Taking that into consideration we would then merge that 
with the will and capability to deliver those pathogens in this 
country and thereby make an assessment of how much danger that 
particular pathogen, in the hands of whatever terrorist 
organization we judge might have it, might be. And thereby we 
could help or we could contribute to making the judgment of 
applying resources against that particular danger.
    Mr. Shadegg. How far along on that path are you at this 
point?
    Mr. Redmond. Mr. Chairman, we are just beginning.
    Mr. Shadegg. Mr. Tolbert do you believe the Department has 
the tools necessary?
    Mr. Tolbert. Sir, I believe by the merger that has occurred 
in the transfer of strategic assets into the Department, we are 
well poised to lead the country's efforts, lead the Federal 
Government's efforts in the development of these new measures, 
countermeasures, as well as to receive and distribute those as 
required in an emergency. I think from an emergency 
preparedness and response perspective, we are far stronger than 
we were 1 year ago and are well poised to manage this program.
    Mr. Shadegg. Looking at the wording of the act and the 
tools it gives you, neither one of you believe you need 
additional tools or assistance at this point, given that you 
have got a huge undertaking here?
    Mr. Tolbert. No, sir.
    Mr. Redmond. No, sir.
    Mr. Shadegg. I would yield to the ranking member.
    Mr. Thompson. Thank you very much. Both of you gentlemen 
are aware of why you were invited to come and testify today; am 
I correct?
    Mr. Redmond. Yes, sir.
    Mr. Tolbert. Yes, sir.
    Mr. Thompson. And did you have any concerns about the 
testimony that you would offer today before this committee in 
terms of not being able to provide us all the answers we 
needed? In other words, you say you have all the necessary 
tools before you right now.
    Let me give you a ``for instance.'' You talk about the 
President's State of the Union address. In that State of the 
Union address, the President made clear and convincing argument 
that there were biological weapons in Iraq, that we knew how 
many, we knew what the drugs were, and all of that. We have not 
been able to find them.
    Can you, Mr. Redmond, say to this committee whether or not, 
to your knowledge, we have found them as of yet?
    Mr. Redmond. No, sir, I have no knowledge and I am not 
privy to that intelligence about what has or has not been found 
or was or was not predicted to exist in Iraq.
    Mr. Thompson. Is your testimony that our men and women who 
went to fight in Iraq, given the biohazards that existed, that 
we had enough defense mechanisms in place for whatever we 
thought was there at the time?
    Mr. Redmond. Sir, I can't make a judgment about that 
because I don't know what the intelligence was that was 
available.
    Mr. Thompson. Well, so are you saying the President was 
wrong in saying that we didn't have--that bioweapons were not 
in existence in Iraq?
    Mr. Redmond. Sir, I am not saying that. I am saying I do 
not know because I do not know the intelligence. I was not 
privy, I was not even in the government at the time when these 
decisions were made and these intelligence assessments were 
made; and I wouldn't have known about them anyway, because I 
was not working at CIA, had I been in the government.
    Mr. Thompson. So, given your position now, are you privy to 
any of it?
    Mr. Redmond. No, sir.
    Mr. Thompson. Next question. What is the current capability 
of terrorist groups to modify biological agents so that they 
are antibiotic resistant?
    Mr. Redmond. Sir, I am not capable of answering that 
technical question. I will have to take the question and get 
back to the committee.
    Mr. Thompson. So how can we be prepared to deal with 
emergency preparedness and you can't answer it?
    Mr. Redmond. Well, I am sorry, but I did not come prepared 
about--with that amount of technical data, if in fact it is 
available.
    Mr. Thompson. In making the analysis of dangers that exist, 
what is the process that your office would go through to make 
that happen?
    Mr. Redmond. Sir, we would first of all determine, try to 
determine from all the intelligence that is available who may 
have these agents, who is trying to get them, who is trying to 
develop them. Then make a judgment on whether they could 
weaponize them or how they could be delivered, how easily or 
how hard it would be to deliver them. And then make a judgment 
on their will and capability operationally, actually, to do 
that in the homeland.
    That in a nutshell would be our process to assess the 
threat of a particular terrorist organization using a 
particular pathogen to attack the homeland.
    Mr. Thompson. So you would not be able to deal with it 
outside the homeland.
    Mr. Redmond. No, sir. My responsibility is uniquely--is 
uniquely addressing and protecting the homeland.
    Mr. Thompson. So are you able at this point to do that?
    Mr. Redmond. We are developing the capability after about 3 
months in business to develop the analytical capability to make 
these judgments.
    Mr. Thompson. Well, but you said you have the tools. Are 
you saying you have the tools necessary to do it within a 
reasonable period of time?
    Mr. Redmond. I think we are developing the tools to do it 
in a reasonable period of time. We are just starting. We have 
never done this before. When I was thinking in terms of having 
the tools, we have the slots, the positions, the billets to 
fill--which we will fill--and we have the budget to do this 
job.
    Mr. Shadegg. The time of the gentleman has expired. The 
chair would call on the gentleman from New York, Mr. Sweeney.
    Mr. Sweeney. Thank the chairman. I want to follow up a 
little bit on some of the questioning that was just asked 
before I get to some of my own questions. And I guess the 
fundamental decision we have to make here today and that we 
hope that you can help shed some light on is the idea of 
whether or not we are ready to go forward or not with the 
Project BioShield process. And I think you two gentlemen are as 
equipped as any to really get immediately to the crux of that 
issue and talk to me about the implications of if --I 
understand you are 3 months into business, Mr. Redmond; and, 
Mr. Tolbert, I understand all of the time constraints that have 
happened. And I understand the fact that you were delayed 
because Congress failed to act over the past year. So it is 
important that Congress not be an impediment to your progress.
    Tell me what the implications are if we are not to go 
forward; and fundamentally answer the question: Are you ready 
for us to go forward with this project on the authorizing end 
of it?
    Mr. Redmond. We are new to the analytical business 
domestically, but I would say professionally it is my judgment, 
from what I have seen so far in the intelligence, that al Qaeda 
and perhaps some of the other terrorist organizations are fully 
willing to use weapons of mass destruction, and it is a 
question of--to include bioagents, terrorist agents--and it is 
clearly a question of their getting the capability or getting 
the agents themselves and the capability to deliver them in 
this country in a way that would cause casualties. Therefore, I 
believe that this would be a worthwhile enterprise to go 
forward with this.
    Mr. Sweeney. Failing to go forward at this time would be an 
impediment to the further development that you are in the 
process of undertaking now.
    Mr. Redmond. That would be my professional opinion, yes.
    Mr. Sweeney. Mr. Tolbert, any comment?
    Mr. Tolbert. Sir, I believe that the secured funding as 
well as the commitment on the part of the government to work 
with industry in the development of new countermeasures is a 
basic and fundamental requirement to ensure that we have the 
proper--all the proper technical tools, including the vaccines, 
pharmaceuticals, other medical supplies and equipment that are 
required. And I think this legislation does provide some 
additional tools that will ensure that we are able to move in a 
timely manner; that based on intelligence, which changes daily, 
we invest many hours reviewing intelligence, analyzing 
intelligence, looking for the new areas of concern, but once we 
do identify that, we have to be poised to move forward in an 
expeditious manner in collaboration with the Department of 
Health and Human Services. We do communicate very frequently. 
We do have the relationships in place to ensure that we march 
forward in accordance with your desires and in accordance with 
the expectations of the bill. But this tool and secured 
funding, I think, are very important and are critical at this 
juncture in our ability to move expeditiously.
    Mr. Sweeney. Mr. Tolbert, I thank you for that very clear 
answer and directive, and appreciate it. Per your testimony, I 
have a question as to how it relates to FEMA and EPR and CDC 
both--in your testimony, you state that you both assume 
responsibility for maintaining and deploying the national 
stockpiles, the Strategic National Stockpile. CDC keeps it; EPR 
makes the plans to distribute it is my understanding, correct? 
If not, could you enlighten me as to how that exactly works?
    Mr. Tolbert. Sir, currently the Department of Health and 
Human Services retains the responsibility for the formulary for 
the contents of the stockpile. So they determine the contents. 
We are the budget authority, we manage the budget. We own the 
stockpile, its contents, and we issue the orders for 
deployment.
    We work collaboratively with the Department of Health and 
Human Services to ensure that there are adequate plans, 
training, and exercises on the receiving end, at the State and 
community end, to properly receive, break down the stockpile, 
and to properly distribute it within impacted communities. So 
that is a shared effort, but we own it.
    Mr. Sweeney. My understanding is that certainly with 
details being worked out, that the authorization and then the 
appropriate funding tied to this particular act will allow you 
to expeditiously move that forward even further, correct?
    Mr. Tolbert. Yes, sir; that is correct.
    Mr. Sweeney. Who currently--this is a question for both of 
you. Who currently decides what is stockpiled? Mr. Redmond, I 
think that is kind of a key question and relates to what is the 
core of a great deal of concern on both sides of the aisle 
here; and that is, as you develop this system of intelligence 
analysis, how in practical terms are you going to be able to 
employ it? This was one of those areas--
    Mr. Redmond. I would think over the longer term we would be 
able to make judgments about which pathogens, and delivered by 
which terrorist organizations, were the most likely to be used. 
That would be a judgment call, and therefore that would 
contribute to the judgments of what kind of a stockpile and how 
much.
    Mr. Sweeney. Who makes the call today? How is that done?
    Mr. Redmond. I don't know.
    Mr. Sweeney. In terms of what you are stockpiling and what 
you are not.
    Mr. Shadegg. The time of the gentleman has long since 
expired. I call on the gentlelady from Missouri, Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman, I appreciate that.
    Mr. Redmond, you shared with us that you have one scientist 
from--let's see--Lawrence Livermore, and also a biologist. I 
wondered if you would share with us how many scientists and 
biologists and others you will have dedicated specifically to 
analyzing the threat of bioterrorism and when those people 
might be in place, if they are not in place now?
    Mr. Redmond. We have Ms. Allen in place now. And her job 
will be to take on the issue in DHS, and, at least for the time 
being, use her contacts back in the labs and academia, at Fort 
Detrick, to examine the problem and use their expertise. I am 
not--I can't answer the question of how many more people we 
will actually have assigned there over the longer term. We will 
have some more.
    Ms. McCarthy. Do you have a sense of when those people 
might be in place?
    Mr. Redmond. That will depend on us getting larger quarters 
and things like that. There is no point in getting people 
assigned there until we get a little bit more room so we can 
fit them in.
    Ms. McCarthy. Is that likely to happen in the next few 
weeks or months?
    Mr. Redmond. I think probably in the next few months, from 
what I understand.
    Ms. McCarthy. Both Eric and Paul, how would you assess the 
quality of our intelligence right now on the threat of 
bioterrorism? I am asking this as sort of a follow-up to us 
having our homeland security folks in place. I wonder how good 
our sources are and, you know, what kind of biological threat 
we think might be posed, and also your degree of confidence in 
the threat assessment we have now in bioterrorism.
    You know, there are troubling stories in the press, most 
recently the L.A. times, where an Iraqi weapons expert says, 
The search is futile and these weapons have been gone for 
years. It was in yesterday's L.A. times. That person insists 
that the combined blitz of allied bombing and intense U.N. 
inspections in the nineties effectively destroyed Hussein's 
chemical, biological, and nuclear program. The public is 
getting various views and opinions from many, many sources. So 
I wondered if you would just share with us what your view is of 
the quality of the intelligence on this threat of bioterrorism, 
and your degree of confidence in the threat assessment that is 
we are now getting.
    Mr. Redmond. I can't address the issues of what has been or 
hasn't been found in Iraq. I would say--and in this 
unclassified arena, there are plenty of gaps in what we know 
about what various terrorist organizations are actually doing. 
The problem is we don't know what we don't know. I can't say 
that we can be completely confident that we have a full 
picture.
    Ms. McCarthy. I thank you.
    Mr. Tolbert, Director Tolbert.
    Mr. Tolbert. My primary utilization of intelligence is 
through derived products. I can say that from my own 
perspective, the products that I receive are adequate to 
fulfill my obligations and my responsibilities in strategically 
and tactically moving personnel equipment and supplies in order 
to meet current operational demands. So the products are quite 
adequate for my purposes.
    Ms. McCarthy. Which terrorist groups have intent and 
capabilities for bioterrorism, and what agents are they working 
on?
    Mr. Redmond. There is information--let's take anthrax to 
start--that Aum Shinrikyo, the Japanese terrorist organization 
produced and attempted to disseminate anthrax. Al Qaeda--on the 
subject of al Qaeda, there are documents found at a place 
called Tarnak Farms in Afghanistan that include detailed notes 
on anthrax production. And apparently al Qaeda was in the 
process of building a laboratory near Kandahar in Afghanistan 
for the production of biological agents. Those all, of course, 
been found and gotten at.
    What the residuals from that are, as far as I know, are not 
known. As far as botulism, botulinium toxin, Aum Shinrikyo 
again was studying, and probably the judgment is they probably 
produced a small amount. Again, al Qaeda and another 
organization associated with al Qaeda, called Ansar al Islam, 
probably produced some botulinium toxin in a compound in 
northern Iraq.
    Ms. McCarthy. Are they capable--how many of these groups 
are capable of using these methods in an attack right now, 
currently?
    Mr. Redmond. I can't make a definitive judgment about that.
    Ms. McCarthy. I recognize that my time is up. I thank you 
for the courtesy. We will hopefully have another round of 
pursuit. Thank you very much.
    Mr. Shadegg. The chair calls on the gentlelady from 
Washington.
    The gentleman from California, the chairman of the full 
committee.
    Mr. Cox. Thank you, Mr. Chairman.
    I would like again to welcome our witnesses and introduce 
you to your authorizing committee. We are here to help you, and 
I might say that we are not getting very far very fast today. I 
hope we can do better work.
    We are about to mark up legislation that will add 
significant new responsibilities to the Department of Homeland 
Security and, specifically, new responsibilities for the 
Secretary. The purpose of today's hearing is to make sure that 
the Department has all of the tools that it needs to accomplish 
this mission.
    Now, the mission that we are giving the Department that it 
doesn't already have, although it's complementary to missions 
that the Department was given recently in the statute, is to 
take global responsibility; to look over the whole planet for 
all manner of biological weapons agents for chemical weaponry 
as well as radiological threats, and then to assess which of 
these threats is most material, which I take it implies knowing 
something about the capacities of our potential enemies and 
also the consequences of the use and the manner of the use of 
these agents and which of these threats is most material to the 
population of the United States. That is an enormous job.
    Now, you have introduced to us one person who is a 
microbiologist who works for the directorate. And I am sure 
that this is not accurate, but the impression that you have 
left is that it is the two of you working with the outside 
world. The question that that raises for me is whether or not 
we shouldn't be putting this responsibility somewhere besides 
DHS if you are going to have to look outside to get it anyway. 
I put that question to Mr. Redmond.
    Mr. Redmond. Mr. Cox, we are just getting started and I 
think having the one person in DHS and information analysis who 
can get back to these various areas of expertise will get us 
started. Therefore, I think as we start this program we have 
enough resources.
    Mr. Cox. And, specifically, the resources are yourself and 
Susan Allen--and what else?
    Mr. Redmond. Well, we have at the moment in the Information 
Analysis part of IAIP somewhere in the neighborhood of about 26 
analysts. It is a mixed group.
    Mr. Cox. Are those analysts focused on biothreats?
    Mr. Redmond. No, sir. They are focused on everything from 
regular threats--they are from the military, they are from the 
Bureau, they are from various parts of Homeland Security. Also 
there are some other people from the labs. It is a rather 
eclectic group. We are hoping, as soon as we get a little more 
space, we are going to hire another 20 or 30 analysts, some of 
whom will be specialists in this area, others of whom will be 
specialists in other kinds of terrorist threats.
    Mr. Cox. If I may, of those 20 or 30, which will include 
additional support for yourself and Ms. Allen--or Dr. Allen, I 
imagine--how many might be focused on the biothreat?
    Mr. Redmond. I would guess--and this is just an estimate--
two or three more.
    Mr. Cox. Then my question will be whether the five of you 
are be able to discharge the statutory responsibilities that 
the Secretary will inherit if we enact this legislation, if we 
mark it up next week as it is written.
    Mr. Redmond. I believe we will, on the assumption, Mr. Cox, 
that we will be able to leverage, if I may use that term, 
reachback to various other--all the other institutions and 
laboratories throughout the country, without establishing 
another large--where the expertise resides is rather esoteric--
without establishing another large organization in Washington.
    Mr. Cox. The statute permits the Secretary to put 
requirements on the Intelligence Community. It also states that 
in the absence of requirements placed by the Secretary on the 
Intelligence Community and/or cooperative agreements between 
the Secretary and other agencies of the government, the 
community is required to send to the Secretary information, 
including raw, unanalyzed intelligence that relates to his 
responsibilities, of which this will be one.
    Will you have the capacity to analyze the scientific raw 
data that is going to come to you about biothreats with the 
five people including yourself that you are talking about?
     Mr. Redmond. We would have that capacity using, again, the 
reach-back capability to the various centers of expertise, 
whether they are academic, Ft. Dietrich or the other labs. I do 
not think we would have across-the-board expertise within DHS/ 
IA itself.
    Mr. Cox. Would you be looking to Fort Dietrich to perform 
the analysis and produce a finished report?
    Mr. Redmond. I think we would reach back to them for their 
contribution to our analysis that would end up in a report that 
would be given to the Secretary for his contribution to this 
decision-making.
    Mr. Cox. Well, my main question--I will reserve questions 
to a second round. Thank you.
    Mr. Shadegg. The time of the gentleman has expired. The 
Chair would note that we have a series of votes, one 15-minute 
vote and two 5-minute votes. We have roughly 10 minutes left in 
the first 15-minute vote.
    It would be the Chair's intention to call on the ranking 
member of the full committee, Mr. Turner, for his questioning, 
and then to take a break for approximately 25 minutes, 
returning here as close to 3:35 as possible. The gentleman from 
Texas.
    Mr. Turner. Thank you, Mr. Chairman.
    I know we had a full committee hearing on May 15th; and, 
Mr. Redmond, you were invited to come to that hearing and were 
unable to do so. And Mr. Tolbert was supposed to come as your 
replacement, and then Mr. Tolbert was unable to come.
    But the hearing on that date, over 2 weeks ago, almost 3 
now, the subject of it was BioShield--Countering the 
Bioterrorist Threat. As you know, our purpose in having that 
full hearing was to gain the information that I referred to in 
my opening remarks, that is, to give this committee the 
opportunity to know what the nature of the threat is. You 
acknowledged in your opening remarks that you are not prepared 
to share that with us today, even if we were to go into closed 
session.
    So I guess my question for you is, when could you be 
prepared, recognizing that we have an obligation on this 
committee to mark this bill up next week because it has been 
designated as a priority item? And how long would it take you 
to assemble the necessary expertise to brief this committee in 
a classified session so that we could have some understanding 
about what the nature of the biological threat is to this 
country?
    I will have to admit that, in light of all of the recent 
news reports about the failure to find chemical, biological or 
nuclear weapons in Iraq, which was an issue critical to many of 
us when we cast our vote on that very important issue on the 
floor of the House, I think it is just a little bit more on the 
minds of many of us that we better hear straight from the 
horse's mouth the nature of the threat that we are facing and 
be sure that when we pass legislation it relates to a threat, 
number one, that is real; and, number two, if it is as serious 
as some would suggest, I may, as one member of this committee, 
like to do more than I currently see in Project BioShield.
    So I would really appreciate it if you could think about it 
and if you could tell me today when we could expect the 
opportunity to hear that information. I think many on this 
committee would appreciate that, and in fact I think it is 
essential that we do so.
    Mr. Redmond. Well, Mr. Turner, I would have to take the 
question, get back to DHS, look at what we could put together 
in a hurry, probably based on some assessments done before 
DHS--done by the intelligence community, done before DHS came 
into existence, and then get back to you and give you an idea 
of how quickly we could come back here for a classified 
session.
    Mr. Turner. Well, I wish you would do that. Because I think 
many of us would like to have that opportunity.
    The other issue that Chairman Cox raised, I also share the 
same concerns. That is, when you share with us that you and 
Susan Allen and two or three others are going to carry out the 
responsibilities given to you under this proposed legislation, 
it causes me to have grave concern that we are not doing the 
job in the way that the legislation envisions it.
    Because, under the legislation, you are given the 
responsibility to make the assessment and to make the 
recommendation to the Secretary, who would then make the 
recommendation to the President. You know, you have shared with 
us, in another setting a few weeks ago, basically how you are 
working with TTIC. It just strikes me that most of the 
expertise that we are talking about and most of the analysis 
capability is now accumulating in TTIC. I really think that 
there is a strong feeling on the part of many on this committee 
that the Department has the responsibility under Section 202 of 
the bill to be the place that accumulates the intelligence 
information and where the analysis takes place, not in this 
other entity that apparently belongs to nobody, that nobody can 
provide this committee with any presidential directive or 
executive order creating it.
    We are basically in a posture where this Congress passed a 
bill mandating that your Department carry out this task, and 
now we know that it is being done, apparently, at TTIC. I don't 
know if you agree with that or disagree with that, but I think 
the capability that needs to exist in your Department is now 
accumulating elsewhere.
    Mr. Redmond. Perhaps I gave the wrong impression, Mr. 
Turner. I didn't mean to imply that it was just myself, Ms. 
Allen, and a few other people. She is there as a specialist in 
this area as we get started to be a point of contact and an 
expert so she can reach back and leverage to all of the other 
institutions in this country, again as we get started, for 
expertise so we can do this analysis.
    As I alluded to earlier, we will expand our inherent 
capability with more people in this area, but that will take 
time.
    As far as TTIC and the expertise that has accumulated 
there, I assume, although I am not an expert on this, that the 
intelligence community has had expertise in this area, some of 
which is gravitating to TTIC. Analysis was done about--in this 
field for years in the intelligence community.
    We have a representative there. We are assigning people to 
TTIC. We view ourselves as a player in TTIC, fully cognizant of 
what is going on, and we would take full--make full use of what 
is being done in TTIC and apply it to our independent analysis, 
which is purely domestically oriented.
    Mr. Shadegg. The time of the gentleman has expired.
    I understand there are less than 4 minutes remaining in 
this vote, so we will recess at this time and resume in 25 
minutes, approximately 35 minutes after the hour.
    [Recess.]
    Mr. Shadegg. I would like to call the joint committee back 
to order.
    It is my intention to try to proceed with questioning 
during the next series of votes so that all of the Members will 
have time to get their questioning in. I guess we are having 
some trouble with the microphones, so these questioning will 
have to speak up quite loudly.
    The gentlelady from Washington, Ms. Dunn.
    Ms. Dunn. Thank you very much, Mr. Chairman. Gentlemen, 
could you tell me what currently resides in the stockpile--what 
vaccines or antibiotics or other agents are in the stockpile?
    Mr. Tolbert. I did not bring the current inventory with me. 
It is a compilation of both pharmaceuticals, and the smallpox 
vaccination program is also part of the current stockpile. It 
includes not only pharmaceuticals but specific acute medical 
equipment and supplies that are required to take care of mass 
casualties in a post-impact environment. So it is both 
prevention, prophylactic medications, smallpox vaccines, as 
well as equipment and material.
    Ms. Dunn. Anything on anthrax?
    Mr. Tolbert. There are prophylactic as well as treatment 
pharmaceuticals, yes.
    Ms. Dunn. Let me just tell you what one of my concerns is 
right now. I know that two committees have already passed the 
BioShield program, and we are look at marking it up next 
Thursday afternoon. But when you read through the legislation, 
you run into things like the fact that there is huge 
discretionary judgment that is left up to the Secretary of HHS 
and the Secretary of DHS.
    For example, Section 4 of the Act waives the premarket 
approval clearance and licensure provisions of the Federal Food 
Drug and Cosmetic Act, and it allows the Secretary of Health 
and Human Services to authorize the emergency use of an 
unapproved product during times of military, national and 
public health emergencies.
    That is a huge amount of jurisdictional and judgmental 
decision-making that is made as a result of something that your 
agency, Mr. Redmond, will be deciding. That is, what type of 
things should we have in the stockpile? What sort of drug or 
antibiotic or agent or prophylactic should we approve?
    And, step two, of course, it doesn't have to be approved by 
FDA, so you can go around all sorts of regulations.
    In addition to that, we are costing the taxpayers a lot of 
money in this bill. $5.6 billion have been allocated over the 
next 10 years to this program. So I think it is very important 
that we walk away from this hearing today with the utmost 
credibility in your ability to put together a program that is 
going to allow you to analyze which types of antibiotics, drugs 
and so forth are going to be used in this program. And I am 
having a problem with that right now. I think with the very 
best of acts you can still have problems if the management is 
not in place.
    You have been there for 3 months, and I know that that is a 
short period of time. But we are talking about--what--five 
analysts? I know there are something like 13,000 analysts 
available for this sort of information around the United 
States, and I am wondering why we are not getting into this 
more quickly. Because this Act is going to take effect as soon 
as the appropriators appropriate this money.
    But what is going to happen processwise? Let's say today--
when you leave the hearing today, what are you going to be 
doing to make sure that we have in place the right analytical 
ability to take a look at what the threats are going to be and 
then what the countermeasures are going to be and which winners 
and which losers we are going to be picking out of the 
pharmaceutical industry for one, who will have their products 
stockpiled and purchased by the government?
    Mr. Redmond. Well, I can't talk to the issue of which 
pharmaceutical companies would be involved. I would say that we 
would go back from here today and build on the analysis that 
was done in the past with Ms. Allen, who is here, reach back, 
as I alluded to earlier to the literally hundreds of experts 
out there in the short term, quickly, as we start our--as we 
continue to start our organization, to make these judgments.
    Over the longer term and as we assume this larger 
responsibility if this legislation is passed, we will clearly 
have to hire many more biochemists or microbiologists to be an 
integral part of our organization, but that is over the longer 
term.
    Mr. Tolbert. If I can address that. The primary 
intelligence role of the Department is to identify new and 
emerging threats, based on the intelligence coming in from an 
array of sources. I don't know that the intent was ever to 
create the Department of Homeland Security as the premiere 
intelligence agency. We have become a fusion point, collecting 
the intelligence and comparing that intelligence against 
current capabilities.
    So as it relates to the stockpile and Project BioShield and 
the development of new vaccinees, it will always--regardless of 
where it resides, it will always be a collaborative effort 
where we identify a new or emerging threat, we compare that 
against current capabilities or countermeasures to deal with 
that emerging or possible threat and, from that, work with the 
pharmaceutical companies as well as the medical professionals 
through the Department of Health and Human Services to develop 
new vaccinizes, new pharmaceuticals, new countermeasures to 
deal with this new or emerging threat.
    So I think, regardless of where we build the capability, it 
is always going to be the role of the Department to be a fusion 
point to identify those new trends and conditions that warrant 
new countermeasures.
    Ms. Dunn. Except the Department of Homeland Security will 
be the decisionmaker.
    Mr. Redmond. And we would gather information, analyze it, 
and make the final judgment on the advice given to the 
Secretary, to work with the Secretary of HHS, I guess, to make 
the recommendation to the President. We would have the final 
responsibility to making the analytical judgment.
    Ms. Dunn. Are you aware of all of the agents that we had 
concerns about over in Iraq, and in that area? I mean, those 
are the ones we are worried about being disseminated to other 
nations and other terrorist groups. Are we on top of which 
types of nuclear, biological and so forth weapons of mass 
destruction we need to be concerned about being disseminated so 
that you are well along in your ability to choose the best 
antibiotic, so that if there were a terrorist attack to happen 
within the few months we would be prepared for that?
    Mr. Redmond. We are not well along in this analytical 
effort at all. We are just beginning.
    Ms. Dunn. Did you glean anything in terms of--well, did you 
glean anything from the TOPOFF projects in Chicago and Seattle 
in terms of information that would enable you better to respond 
to something like the dirty bomb, for example, that was part of 
the exercise in Seattle? Have you received the results of those 
exercises yet?
    Mr. Redmond. No, ma'am. As I understand it, the performance 
and all of the issues are still under review; and we haven't 
received that review.
    Mr. Tolbert. There have been a serious of hot washes where 
the agencies involved at various operations centers were 
involved in sharing information and developing response 
strategies and tactics. There were a number of hot washes.
    There were--to the best of my knowledge, there were no real 
serious deficiencies identified, at least from our perspective 
in the consequence management arena. The hot washes so far have 
not identified any major deficiencies.
    The key will be as we come together now with local 
government, State government and the Federal agencies that 
responded to compare each others notes on how we jointly 
responded. We will look forward to that process. It is defined.
    Ms. Dunn. Thank you.
    Mr. Shadegg. The time of the gentlelady has expired. It had 
been my intention to try to roll through this series of votes. 
But, as I understand it, we have a back-to-back vote. There are 
about 6 minutes or less left in this current vote, then there 
is a 5-minute vote, so we will have no choice but to recess. We 
will recess and return at 4 o'clock or 4:05 and resume the 
hearing at that time.
    We stand in recess.
    [Recess.]
    Mr. Shadegg. At this time I would like to call the hearing 
back to order and call on the gentlelady from the Virgin 
Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman; and welcome to 
our panelists. My first question goes to really both of you.
    The IOM, the Institute of Medicine, has been asked to 
evaluate Project BioShield as it was submitted. Their report is 
due later this year. So I am wondering, what is the rush to 
have us authorize and fund this before the National Academy of 
Medicine does the report, in the beginning DOD, and then 
Congress asked them to complete?
    Many of the questions that we have have not been answered 
adequately, I don't think, in three hearings. It seems like it 
takes a long time to develop vaccines. In one of the hearings, 
we heard that it takes longer than 5 years. We know that basic 
research is being done now.
    Would we really lose that much if we waited until we had 
this very informed assessment of what is required to best 
prepare us to protect our country to prevent and respond to 
bioterrorism? I don't think this is something that we should 
rush into. As I said, the questions haven't been answered. It 
seems like we rushed into the Transportation Security Agency, 
and that is a mess. Why not wait until this report that we have 
asked for comes out, gives us a very informed, detailed 
assessment and then move ahead?
    Mr. Tolbert. I am not aware of the study under way by the 
National Academy of Sciences, so I can't adequately address 
that. All I can say is that we in the government--we in the 
Department of Homeland Security really don't set the 
operational tempo.
    Mrs. Christensen. Would we lose that much time if we waited 
until the end of the year for this report to come out? My 
understanding, again, in asking a question in a previous 
hearing, we are talking about a 5-year period of time for 
development of this countermeasure. But many of the 
pharmaceutical companies here says it takes a lot longer than 
that to develop a vaccine. So would we lose anything by not 
rushing to this--without having adequate answers to many of the 
questions that have been asked in three hearings? And shouldn't 
we just--would we lose much time if we waited until this report 
came out and we were better informed?
    Mr. Redmond. I can't answer that question. I guess I would 
say only that perhaps the more quickly we get started, the more 
quickly we would be prepared.
    Mrs. Christensen. Is there no research going on right now?
    Mr. Redmond. I am not qualified to answer the questions of 
what research is being done.
    Mrs. Christensen. You know, what the pharmaceutical 
companies are supposed to do is take the basic research that 
has been started, heading in a particular direction that looks 
promising, and that is when Project BioShield kicks in. So I 
would assume that at this point there is some basic research 
being done leading us in certain directions to get us to that 
point where the pharmaceutical companies would kick in and take 
it on to a completed project.
    Mr. Tolbert. Well, the research is based on real-time 
intelligence; and the intelligence has to establish, again, a 
new emerging threat. An emerging threat or a new threat can be 
caused by new development, new enemies. It can be a new method 
of distribution that now makes it a feasible weapon that did 
not previously occur.
    The only response I can offer is that the program itself--
the existence of the program in itself serves as one more 
deterrent that we have available to us; and it removes the 
obstacles that currently exist, which is primarily the lack of 
funding to commit to the industry for the development of new 
pharmaceuticals and vaccines so that we are not losing any more 
time working with the industry in establishing the 
relationship. So there is no intent to spend the money without 
a specific threat.
    Mrs. Christensen. Let me ask this other question, because 
there was a briefing on the Hill, I believe it was earlier this 
week or late last week, with the Institute of Medicine, some of 
the members of Pharma; and one of the things that was said in 
this briefing was that measuring the success of a bioterror or 
countermeasure research strategy is if it met the following 
standards. This is one of the standards. I just want to hear 
how--if you agree with this and how does BioShield help us get 
there.
    One of the standards: If the agenda focuses on the 
development of powerful research tools that will enable us to 
respond quickly to a new unforeseen terror agent and not just 
to develop countermeasures for terror agents we know about 
today.
    Because you will hear from a lot of the questions, and if 
you have listened to any of these hearings before, we are all 
concerned that we don't know what we are developing the 
countermeasures against. We didn't know about SARS back in the 
early part of this year. We can spend a lot of time creating 
all of these wonderful countermeasures and come up with 
something that we never saw or heard of before.
    So wouldn't it be better for us to focus on the development 
of these powerful research tools? If it is--this is what the 
pharmaceutical companies felt, does BioShield help us get 
there?
    Mr. Tolbert. I think you are getting--your question is 
beginning to touch on the economic incentives that are provided 
by the existence of the program, which is what is missing from 
today's formula. Even with SARS, even with any emerging threat 
that we have today, without the committed funding and the 
appropriated funding so that we can move forward in good faith 
with industry to encourage the research and development--and we 
don't necessarily finance the research and development through 
this program, but the industry is assured that there is a pot 
of money that is going to allow us to acquire the products as 
they are--as they reach their final form. So it is an incentive 
program as much as anything.
    I think it is important that we move forward and remove the 
obstacles that currently exist in the research and development 
arena; and one of these, the major one, is the economic 
disincentive as it currently exists for the industry to engage 
in the development--research and development.
    Mrs. Christensen. But, in addition, we have concerns about 
this permanent mandatory stream of funding as well.
    But before my time is up, let me ask this one last 
question.
    The success in protecting our citizens and residents really 
hinges on the quality and adequacy--I am going to ask this of 
Dr. Redman--of the intelligence that we gather and analyze. We 
have the Terrorism Threat Interrogation Center, and it is 
really outside of this Directorate, the information analysis 
and infrastructure. Can you explain why we need these two--tell 
us if they work. And as we look at how we may amend the 
Homeland Security Act, wouldn't it be better for us to amend it 
in such a way that the two processes came together so that we 
don't have confusion over who is doing what and things fall 
between the cracks? We cannot afford to have that happen.
    Mr. Redmond. Well, the Information Analysis and the 
Infrastructure Protection part of Homeland Security is unique 
in that it is--unlike TTIC, it is focused on the threat to the 
homeland. Whether the threat originates overseas or not, our 
optic is to view the threat to the homeland.
    Secondly, the other very important part is the information 
analysis interface with the infrastructure protection, to take 
analysis of the threats and apply it to the infrastructure so 
protective measures can be tailored in the most economic way 
best to protect that infrastructure.
    Thirdly, unlike TTIC, our job is to interface with State, 
local governments and law enforcement agencies, to some degree 
with the Bureau. We will establish, over time, a large 
analytical capability independent of TTIC. We will have a 
representation in TTIC to know what they are doing, because 
they will be pulling the data collected overseas, some of it 
collected domestically, probably some of it collected by--
gathered by DHS itself, and we will take advantage of it.
    But our job will be independent of TTIC to analyze all of 
that and apply it to the homeland.
    Mr. Shadegg. The time of the gentlelady has expired. The 
Chair would call on the gentleman from Connecticut, Mr. Shays, 
for 8 minutes.
    Mr. Shays. Thank you for conducting this hearing, Mr. 
Chairman.
    I was interested to come to the hearing to understand what 
kind of cooperation we would receive from the Department of 
Homeland Security, how seriously both of you gentlemen would 
treat this hearing, how seriously you treat your jobs as it 
related to coming before this committee. And I just want to 
understand something. The statement says, Statement of Paul 
Redmond and Eric Tolbert. But I am to understand, Mr. Redmond, 
this is not your statement?
    Mr. Redmond. I am sorry, Mr. Shays. I am rather new to this 
process. I misspoke. It is my statement jointly.
    Mr. Shays. Well, I hope you don't say that. Tell me what 
you wrote in it.
    Mr. Redmond. I didn't see it until I got down here.
    Mr. Shays. Well, there is nothing in this statement that 
deals with your area, is there?
    Mr. Redmond. No.
    Mr. Shays. So it is not your statement, is it?
    Mr. Redmond. Correct.
    Mr. Shays. It is not your statement. And you told us you 
didn't have a statement. You didn't misspeak. You didn't have a 
statement. This is Mr. Tolbert's statement, not yours, and it 
only deals with his side of the equation. We have information 
analysis--let me back up.
    I chair the National Security Subcommittee. We have 
jurisdiction of Defense, State Department, now Homeland 
Security; and we have always had the intelligence committees.
    We were going to have a hearing on the intelligence 
committees and how well they communicated, and they had a 
permission slip from our Intelligence Committee saying they 
didn't have to show up. They didn't have to show up because the 
Intelligence Committee said they didn't have to come before our 
committee. I am used to that on my committee; I am not used to 
the lack of cooperation from people from the Intelligence on 
this committee.
    But, Mr. Chairman, I just want to say to you, it has a bad 
feeling to it. In my committee and in other committees we had 
three commissions come before us--the Bremer Commission, the 
Hart-Rudman Commission, and the Gilmore Commission. All three 
said there is a terrorist threat, we need a strategy; and the 
only thing they disagreed with was the reorganization of the 
government.
    So now we have two parts in the reorganization of 
government. We have information analysis--and, Mr. Redmond, 
that is your job, correct?
    Mr. Redmond. Yes, sir.
    Mr. Shays. Okay. You have no statement.
    We have science and technology. We didn't ask anyone. We 
have border and transportation security. Then we have emergency 
preparedness and response. That is you, Mr. Tolbert; and this 
is your statement, correct?
    Mr. Tolbert. Yes, sir.
    Mr. Shays. Okay. When we established the Department of 
Homeland Security, there was a gigantic debate about whether we 
wanted the intelligence community in there or whether we wanted 
an intelligence community outside, and experts to then 
basically take what we got from the outside. In other words, 
keep our intelligence community pretty much the way it is. And 
I basically bought into that.
    Why should I feel comfortable today, Mr. Redmond, with your 
lack of a testimony--you are now saying maybe you did write it 
and now not writing it--and the fact that you have not 
addressed any of the issues that we are concerned with? Why 
should I feel that we made a good decision having this the way 
we did and having you there? Tell me why I should feel good 
that you are there?
    Mr. Redmond. Well, I am trying to establish, based on my 
experience in the intelligence communities as an intelligence 
officer, a good analytical capability, a large analytical 
capability. Mr. Shays, I can tell you I am trying to do my best 
at this point.
    Mr. Shays. Anything else?
    Mr. Redmond. No, sir.
    Mr. Shays. That is your complete answer? Tell me what it 
means that you are trying to have a good analytical ability.
    Mr. Redmond. What I am trying to do, Mr. Shays, is build a 
cadre, ultimately, of a little over a hundred analysts from a 
wide variety of experiences and expertise to address the 
threats to the homeland--whether these people would be law 
enforcement people, whether they would be from NSA, whether 
they would have CIA experience; put together a variety of 
people who can jointly, independently of the TTIC or the 
intelligence community, to assess the threats based upon the 
data, some of which we will produce ourselves from the various 
parts of DHS, such as TSA and BICE, for instance, based on 
intelligence data which would come through TTIC where it would 
be gathered together, and ultimately from the Bureau, whether 
it is directly from the Bureau or via TTIC. Ultimately, put 
that all together and make judgments about the various threats.
    Mr. Shays. Of the hundred that you hope to staff, how many 
do you have to date?
    Mr. Redmond. I believe we have 25 or 26.
    Mr. Shays. Was it your testimony that you didn't hire more 
because you didn't have space?
    Mr. Redmond. Yes, sir. Let me correct that. We have in the 
pipeline today, I think, roughly 21 people who we have picked 
and we are already hiring people and putting them where we can 
put them.
    Mr. Shays. That is really not what I asked. I asked, did 
you state before I came or while I was here that you did not 
hire some people because you don't have the space? I want to 
know if you said that. I was told that you said it.
    Mr. Redmond. We have not hired them. We have not brought 
them aboard because we do not have the space for them.
    Mr. Shays. Do you feel that, given the incredible 
importance of your office, that that is a pretty surprising 
statement to make before this committee?
    Mr. Redmond. It was a difficult statement to make. And the 
management of DHS is trying--as quickly as possible--to get 
more space for us.
    Mr. Shays. When will you have enough space to hire the 
people you need to do your job?
    Mr. Redmond. I don't know the answer to that, Mr. Shays.
    Mr. Shays. Should I be concerned that you don't know the 
answer to that question? Should I be concerned that you don't 
have enough space, or should I just accept it as the way it is?
    Mr. Redmond. I wouldn't accept it the way it is. I would 
accept , I would hope, my statement that the management of DHS 
is working very hard to find more space for us.
    Mr. Shays. Is it a problem that they are giving less 
priority to your area? Is it your statement that they are 
giving less priority to your area? You are one of the four 
pillars of this Department, and you are one of four pillars. We 
have over 160,000 employees, but you are one of the four 
pillars, and you basically need 100 employees, and they have 
enough space for thousands, and you are telling me that they 
don't have enough space for a hundred?
    Mr. Redmond. I don't know why we don't have it except this 
is the last part of homeland security to come into being, as I 
understand it. So we are catching up and getting space, as I 
understand it.
    Mr. Shays. The Department went into effect on March 1st, 
correct?
    Mr. Redmond. I believe so.
    Mr. Shays. But when did the legislation pass?
    Mr. Redmond. I don't know the answer.
    Mr. Shays. When were you hired?
    Mr. Redmond. I came to work I think on the 17th of March, 
Mr. Shays.
    Mr. Shays. Did you have a predecessor?
    Mr. Redmond. No, I did not.
    Mr. Shays. Mr. Chairman, I have other questions. But I will 
make it in the second round.
    Mr. Shadegg. The time of the gentleman has expired.
    The Chair would call on the gentleman from Massachusetts, 
Mr. Markey, for 8 minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Redmond, your division of the Department of Homeland 
Security is the warning system, the radar system. You are part 
of this homeland security protection system that we are 
building in America which is going to give us the kinds of 
warnings that we did not get before September 11th. That is 
your job.
    Knowing that, let me ask you this question. Right now, on 
passenger jets going all across America, at this time air cargo 
is being put under the passengers which has not been screened. 
The passengers' bags are screened. We have to take off our 
shoes, turn over our belts, but the air cargo is not screened.
    Given your vast knowledge in the intelligence field, Mr. 
Redmond, do you think it is advisable for the United States to 
screen the cargo that we put under the passengers who have had 
to take their shoes off in order to ensure that no bomb, no 
explosive is placed upon an American airplane?
    Mr. Redmond. I certainly would agree with the statement, 
with the judgment that, of course, the cargo should be screened 
as quickly as a system can be put in place to do that.
    Mr. Markey. So, right now, the Department of Homeland 
Security has made no decision, almost 2 years after September 
11, 2001, as to whether or not that cargo should be screened on 
passenger jets? Your recommendation to your Department would be 
that it should be screened.
    Mr. Redmond. That it would be. But I would add that I never 
addressed the issue before. I wasn't aware of its existence. 
But my judgment would be it should be.
    Mr. Markey. Well, I agree with you, Mr. Redmond. I agree 
with you because, amongst other things, it was unscreened 
passenger bags that led to the explosion on the Lockerbie 
plane. And we are definitely in an era right now where 
decisions can't be made on the basis of whether or not we have 
enough money. The money has to be spent. It is completely 
counterproductive for the Department of Homeland Security, the 
Bush Administration to allow this to go much longer, exposing 
civilian passengers to that kind of a risk.
    My next question. Under Project BioShield, there will be a 
use of Federal money to develop drugs, to develop materials 
which can be used domestically, but they also potentially have 
some commercial value as well overseas, selling them to other 
countries in the world. Do you think it makes any sense for our 
country to sell any of the materials which we do develop under 
Project BioShield to countries who are not allies of the United 
States?
    Mr. Redmond. Well, first of all, our job is to assess the 
threat in the biological arena. We are not in the business of 
advising on or taking part in the research and development of 
the antidotes.
    Mr. Markey. I am saying, given your intelligence--you are 
the top intelligence person here--does it make sense for us to 
give the antidotes, to sell antidotes to countries who are not 
our allies?
    For example, one of our great fears, as you know, in Iraq 
was that Saddam might inoculate his soldiers against Sarin gas 
or against other toxins and then deploy them against American 
soldiers. Does it make sense for us, after we develop the 
antidotes, to sell them to countries who are not our allies?
    Mr. Redmond. My judgment would be that it would be a 
mistake to sell them to countries that were known to be our 
enemies.
    Mr. Markey. Thank you, Mr. Redmond.
    My next question is on the question of FDA approval of any 
of the drugs, any of the antidotes. The position which your 
testimony--or Mr. Tolbert's testimony takes is that Project 
BioShield will, quote, enable the FDA, the Federal Drug 
Administration, to make promising treatments available in 
emergency situations and that this authority is not intended to 
alter FDA's thorough review before licensing a product.
    Would you be supportive of language which ensured that 
while this material--these new drugs and antidotes may be used 
in emergency situations, that they could never be used in 
regular interstate commerce, just sold over the counter to 
ordinary Americans unless and until they had completed the 
entire Federal Drug Administration clearance of the drug so 
that we know that there would not be harm that could befall 
families of our country because they were not properly vetted 
to ensure that they would not harm individuals in our country?
    Mr. Tolbert.
    Mr. Tolbert. I would agree, sir, that these are intended 
for emergency purposes; and until full testing is accomplished 
it would only be our intent to use them in an emergency 
lifesaving purpose.
    Mr. Markey. One final question. Would you support 
legislative language that requires the Department of Homeland 
Security to review all exports of countermeasures or the 
intellectual property that enables the development of 
countermeasures created under Project BioShield to ensure that 
the export wouldn't pose a security risk? Either of you.
    Mr. Tolbert. I don't feel qualified to answer the question, 
sir. That is beyond my purview.
    Mr. Markey. Do you agree with that statement?
    Mr. Redmond. Mr. Markey, I would just add, in general, that 
I would not want to give any one of our enemies any kind of 
advantage.
    Mr. Markey. So you would want each one of these products, 
services, drugs, screened for their potential counter--
    Mr. Redmond. Potential use by an avowed enemy of ours or 
recognized enemy.
    Mr. Markey. Thank you, Mr. Redmond. Thank you, Mr. Tolbert.
    I will say, editorially, that you guys have tough jobs, 
very tough jobs; and you are not given the resources. We are in 
a tight budget era. We are passing huge tax cuts for the upper 
3 to 5 percentile, but we have got to fight a war of terrorism 
which is going to be, as President Kennedy used to say about 
our war against Communism, a long twilight struggle. It will go 
on for a generation at least, and I do not believe that this 
administration is properly factoring in the full costs. I 
believe that the testimony of you two gentlemen today reflects 
the fact that the administration has not factored that in yet.
    You should have more space, Mr. Redmond. There should 
already be the screening of this cargo on planes. I am afraid 
that, unfortunately, there has been a shortchanging of our 
ability to be able to, up front, ensure that these protections 
are put in place for the American people.
    Two years is too long to wait for cargo put on passenger 
planes to be screened. It is unacceptable.
    Mr. Shadegg. The time of the gentleman has expired.
    Mr. Redmond, in response to a question by Mr. Markey 
regarding the issue of cargo placed in civilian aircraft, you 
said that you were not aware of the existence--and I am 
confused--the existence of that. I would like you to be able to 
have a chance to explain what you meant by that statement.
    Mr. Redmond. I hadn't focused on that issue.
    Mr. Shadegg. The issue of?
    Mr. Redmond. Of cargo screening.
    Mr. Shadegg. Not being screened.
    The Chair would call on the gentleman from North Carolina, 
Mr. Etheridge, for 8 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman; and thank you for 
calling this important meeting.
    Let me echo what Mr. Markey said to both of you. Congress 
moved to create Homeland Security and pull this agency 
together; and, working together, we recognize you have a tough 
job. But it is an important job that we can't fail at because 
it is every single person in this country who is depending upon 
you.
    We are here to help you, so please understand we aren't 
your adversaries. We will only be your adversaries if you don't 
give us information to help you. Okay? Because we are asking 
questions to get information so we can make good decisions. If 
we don't make good decisions, the American people pay a heavy 
price; and I would not want that to happen.
    Mr. Tolbert, let me say to you, welcome. For those of you 
who don't know, he headed the emergency operations in North 
Carolina, did an outstanding job for a number of years before 
he came to Washington. So let me ask you a couple of questions 
first, and then I will quickly go back to Mr. Redmond.
    In his testimony before the Homeland Security Committee 
last month, Secretary Ridge said that, in earlier analysis--and 
you have touched on this some already. You may have answered it 
while I was out of the room. The analysis of the TOPOFF II 
exercise revealed some problems with the public health 
infrastructure in areas ranging from communications to the 
reliability of public health volunteers. You are aware of these 
because you have worked with them over the years.
    Can you describe some of the problems very briefly--if you 
have already described them, don't do it--on how the 
directorate has responded? But, more importantly, do you 
believe that legislation is necessary to solve some of the 
problems and, if so, share them with us. If not, are enough 
resources there to get the job done? If not, I would certainly 
like to hear that.
    Finally, is the Emergency Preparedness and Response 
Directorate prepared to coordinate the dissemination of current 
available countermeasures as well as those that may be 
developed through Project BioShield?
    Mr. Tolbert. The two issues in Secretary Ridge's testimony 
involving communications, especially among the public health 
community, as well as the reliability of volunteers, has been 
an issue for many years in the past in all hazards emergency 
management development.
    Mr. Etheridge. But the stakes are higher now.
    Mr. Tolbert. Stakes are absolutely higher. It is an 
additional risk. Death from one cause is as serious as death 
from another cause; and we take them all seriously, including 
the tornadoes and hurricanes and earthquakes and other hazards 
that this Nation faces.
    Tremendous progress has been made, especially in the 
communications arena, of sharing information both vertically 
and horizontally across governmental boundaries, including 
intelligence as well as the consequence management arena, our 
ability to share information on actions done and to coordinate 
actions.
    Mr. Etheridge. Let me interrupt you here. We are talking 
about sharing information. The problem is, though, if you have 
a fire or something else and they go--they have got to use a 
cell phone to communicate, because we don't have a common 
communication instrument even yet, unless that has been 
developed in the last few weeks.
    Mr. Tolbert. There are variations around the country, and 
there are variations from State to State. But I would say that, 
based on my experience, we are making significant progress in 
the development of new communications capabilities that are 
both tactical in nature, at the scene, allowing first 
responders in various uniforms to communicate, but also 
strategically to communicate regionally as well as to the State 
and then to the Federal level.
    We are making steady progress in that arena with--one 
example is a new Web site established by the Department called 
disasterhelp.gov that is providing a web-based system for 
sharing information on preparedness.
    Your second area was, as mentioned by Secretary Ridge, was 
the reliability of volunteers. This, too, is an area where I 
believe we are making significant progress.
    The Citizen Corps Initiative that was launched last year is 
getting very successful results across the country, including 
our home area. It is energizing volunteer efforts, and we are 
finding that Americans are stepping forward to receive the 
training that is necessary and the credentials necessarily to 
not only help their neighbors, but to help others in trouble.
    Another good example is the National Disaster Medical 
System, which I have responsibility for, which is growing to 
nearly 13,000 medical professionals across this country who are 
willing to come at our beck and call to provide medical 
assistance.
    So to answer the bottom line questions, I think we have 
made significant progress in acquiring the resources necessary 
to get the job done. I don't think we are there yet. I think we 
are several years away from having adequate resources 
nationally to ensure that we have good, reliable, sustainable 
communications that provide interoperability as well as 
continuing to develop our personnel through training exercises 
and acquisition of protective equipment as well as response 
equipment.
    Mr. Tolbert. So, no, sir, the job is not done. We are 
several years away from accomplishing that, but we are making 
very steady progress.
    Mr. Etheridge. Mr. Redmond, let me go back to you if I 
might. Because I think Congressman Markey mentioned that you 
are a sort of radar system and that is right. As you get the 
information, certainly the stuff you gather certainly 
determines whether we go from Code Orange to Code Yellow to 
whatever codes as it relates to biological and other issues 
chemical nuclear, et cetera. What do we know about al-Qaida's 
current biological capabilities? Were they able--or can you 
share that with us today as it relates to information that is 
available from issues--we said they were operating in Iraq. Did 
they gather material there or should we be concerned?
    Mr. Redmond. In an unclassified context, I can say that we 
know, as I mentioned before, documents found in Afghanistan 
included details of notes on anthrax production by al-Qaeda. It 
appeared that al-Qaeda was in the process of building a 
laboratory near Kandahar for the production of biological 
agents. That is anthrax. Botulinum toxin, it appears likely 
that they produced some of it in a terrorist compound in 
northern Iraq. It is--the issue of ricin, some of which was 
found in the U.K., and I believe it is not clear whether that 
is--it is at least not clear to me at that point whether that 
was directly related to al-Qaeda or not.
    Mr. Etheridge. Excuse me. I understand that. I know that is 
a part of the record and that is in public dissemination. My 
question is can you share with us information that is public 
information, if not, whether it be necessary for us to go into 
a closed session so we can understand what we have to be 
concerned about as relates to al-Qaida and other organizations.
    Mr. Redmond. Earlier we committed to getting back to the 
committee to set an early date to come and give a classified--a 
briefing or a hearing in a classified environment about the 
bioterrorism threat which, of course, would include what more 
we know about al-Qaeda.
    Mr. Etheridge. I know my time has expired, Mr. Chairman, I 
appreciate that. I hope it would be quickly because we will be 
talking about a markup real soon. It would be in the best 
interest of this committee and the American people, and I think 
the Department, if we can get that before we start to mark up. 
Thank you, Mr. Chairman.
    Mr. Shadegg. I assure the gentleman it is the intention of 
the chairman to get in a newly scheduled hearing at which we 
can get more information in the immediate future. I have had at 
least one member of the subcommittee express a desire to ask an 
additional question. We have some time, so I am going to allow 
him to do so. If others who are here would like to ask an 
additional question, we can do so.
    At this time, the Chair will call on the gentleman from 
Connecticut, Mr. Shays.
    Mr. Shays. Mr. Redmond, I have a feeling that my 
disappointment centers around the fact that--with your 
testimony is that it doesn't exist. I know you have served your 
country long and hard and I know have you risked your life in 
the service of your country. And I need to respect that. But I 
think you understand that I have a job to do. And I have to ask 
this question because I have to, because I want to. When Mr. 
Markey talked about the existence of the potential for the 
luggage in the belly of the aircraft that is not screened 
having explosives, you said you weren't aware of the existence 
of the problem.
    And to Mr. Shadegg, our chairman, you said you hadn't 
focused on that. And for me, that is an indication of a bias, 
maybe I have that. The CIA and the Intelligence Community in 
general loves it if it is classified, but if it is open source 
material, they don't pay much attention to it. Let me explain. 
We debated this issue on the floor of the House. It was in the 
front page of the newspapers. It is possible for a plane to be 
blown out of the sky because we don't yet check the baggage on 
the planes.
    The fact that you are not aware of that problem concerns me 
and I am wondering if I should be concerned. Isn't your job to 
take both classified and public source, open source information 
to integrate them together and to understand the potential 
threats facing the United States?
    Mr. Redmond. It certainly is. And any analysis and 
assessment we are doing and will do will take into 
consideration what is open source information.
    Mr. Shays. So isn't it logical for me to expect that this 
is something that you should know about, that you should be 
focused on and that you should be addressing?
    Mr. Redmond. I certainly will address it in the future Mr. 
Shays.
    Mr. Shays. I understand that, but I am trying to 
understand, if you think I should be concerned about this. That 
it is not a focus. You gave me an honest answer: It is not a 
focus. But shouldn't I be concerned that it isn't a focus since 
it is clearly something that has been debated publicly and has 
been expressed as a concern by the Department of Transportation 
and others as a potential serious problem for the United 
States?
    Mr. Redmond. Well, all I can say, Mr. Shays, is in the 
2\1/2\ months I have been on the job, I did not get to focus on 
that among the myriad of other issues that I have focused on.
    Mr. Shays. Thank you. Mr. Chairman, I would say to you I 
think that is one reason why we reason giving it the attention 
it deserves in other parts of the Department of Homeland 
Security, if it is not even a focus of those who have to 
analyze this. That is the problem.
    Mr. Shadegg. I think this has been a worthwhile oversight 
hearing in which we revealed a lot of analyses that we thought 
was going on apparently, at least at the moment that would 
appear by this testimony is not going on. I think that is grave 
concern to many members of this committee as has been expressed 
today. We will conclude with a discussion of how yet we can 
have another hearing with deeper issues and have a more 
thorough response from the Department.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Mr. Redmond, I am 
certainly hopeful you will do that briefing for us promptly 
because we are under a lot of time pressure to act on this 
bill. I think it would be very difficult for us to act on the 
bill and mark it up without having first having the information 
that we have requested from you. So I hope you will help us.
    I want to say that I know some of our questions have been 
tough today. But it does not reflect, in my personal view, on 
your excellent reputation in the intelligence field. I think 
what I tend to feel after hearing your testimony is that maybe 
the role that the Congress envisioned for your Department, and 
particularly for your directorate, may not be getting the 
emphasis that we expect it to. I don't know if it is because of 
the creation of TTIC, where there is a great deal of activity 
currently, that has caused your Department not to receive the 
emphasis and the boost that I think you need to do the job you 
are charged with doing. As the oversight committee for the 
Department, we want to be in the role of being your best 
friend, to ensure that the resources and the statutory 
authority that you were granted by this Congress is fully 
utilized.
    Sometimes it reminds me of what Rodney Dangerfield used to 
say, he said ``he can't get no respect.'' I hope the Department 
doesn't feel that way. Because you are the new kid on the 
block. You are in a position where you are dealing with 
established agencies who are under the Homeland Security Act 
charged with the responsibility of cooperating with you. And to 
better understand the degree of that cooperation, I want to ask 
you about the nature of the intelligence information that you 
are getting from the other agencies such as the CIA, the DIA, 
the FBI, the NSA. For example, are you getting both finished 
products from the CIA as well as information from their cable 
system?
    Mr. Redmond. At the moment we are receiving at NIA 
somewhere between 1,000 and 1500 ``products'' a day which are 
electronic messages that come in for us to read. They come from 
all over the intelligence community, CIA, NSA, DIA, et cetera. 
In addition, we are getting roughly 100 law enforcement 
messages that come in a day plus open source information plus 
information from other government agencies.
    Mr. Turner. So does that mean from specifically the CIA, 
you are getting everything that they put out, including 
information from their cable system?
    Mr. Redmond. We are not yet getting everything, and that is 
a function of the fact that we need to expand our own 
internal--we call computer capabilities to cope with it, expand 
the number of people who work on it, and then we need to get--
finish the process of certifying that we are handling this 
information according to the terms of the DCIDs. We have been 
operating under a provisional approval and we are just now 
getting to the point where we are able to find and hire a 
specialist in this who can ensure that we are in compliance 
with the DCIDs. I will sort of take the blame, if necessary, 
for this having gone a little more slowly than it might have 
because I wanted to do it right, not cut corners in the 
interest of doing good government.
    And secondly, I want to be seen as doing it perfectly so 
the Intelligence Community would have no rationalization 
ultimately for not sending us everything. We are not getting 
everything yet, but in the very near future, I hope in a matter 
of weeks, we will be.
    Mr. Turner. Does that apply also to the NSA, are you 
getting the signals intelligence from them?
    Mr. Redmond. The same situation would apply to the NSA. We 
are getting a lot of it but we are not getting all of it.
    Mr. Turner. What about the FBI, are they giving you 
everything?
    Mr. Redmond. I don't believe so. Again the same situation 
applies.
    Mr. Turner. And so DIA, would that apply to DIA as well?
    Mr. Redmond. I can't really answer. I haven't focused much 
on what we are getting from DIA. Probably the same situation 
would apply. We get quite a bit from DIA. Mostly analysis.
    Mr. Turner. Part of the problems with these different 
agencies is they are not giving you the higher level of 
classified information yet, is that one of the problems.
    Mr. Redmond. Yes.
    Mr. Turner. It is interesting because we had each of those 
agencies before our Intelligence and Counterterrorism 
Subcommittee this morning, which is sharing the responsibility 
for this hearing, and in that hearing, the FBI, the DIA, and 
the NSA told us that they were giving you everything that they 
thought they needed to give you. Now, I don't want you to take 
my word for it, we will go back and read the record and see if 
I am accurate on that. But the distinct impression I was given 
when I asked the same series of questions was that they were 
giving you everything that they needed to give you. NSA, for 
example, said they were giving you all their products and they 
were trying to get the wiring done to give TTIC everything they 
had. So we may have a little bit of a problem here with some of 
these other agencies. The statute, as you know, is very clear, 
the statute creating the Department of Homeland Security in 
section 202 gives Secretary of Homeland Security whatever 
access the Secretary considers necessary, including all 
reports, assessments, analysis and unevaluated intelligence.
    It also says in section 202, that regardless of whether the 
Secretary has made any request or entered into any cooperative 
agreement, arrangement, pursuant to paragraph 1, all agencies 
of the Federal Government shall promptly provide to the 
Secretary all reports, including information reports containing 
intelligence which has not been fully evaluated, assessments 
and analytical information relating to threats of terrorism 
against the United States and to other areas of responsibility 
assigned by the Secretary. And so those of us who have a vested 
interest in being sure that the law is carried out want to be 
sure that these other agencies are providing you with 
everything that this statute requires. And if that is not 
occurring, we want to be sure you let us know about it and be 
sure that that occurs.
    Mr. Shadegg. The Chair has tried to be very indulgent 
allowing one additional question for each questioner. I think 
some excellent ones have been brought out. Mrs. Christensen, 
did you have an additional question?
    Mrs. Christensen. I don't have an additional question, Mr. 
Chairman, but I think it might be valuable for the committee or 
subcommittee to hear from the Institute of Medicine, since they 
have been charged with reviewing the Project BioShield and 
evaluating it. They have issued some interim reports, although 
there is still time left before they do a final report. I am 
also concerned that in response--I understand where some 
questions just cannot be answered in an unclassified setting. 
But in response to many questions along the line of do you have 
what you need is the structure that the bill created for you 
working, the answers are yes, it is working, yes we have what 
we need.
    And I am trying--I have difficulty reconciling that with 
the slowness of our being prepared. And so I would hope that 
you, Mr. Chairman, and the chairman and ranking member of the 
full committee, would communicate to the administration that we 
do have a job to do, we need the information and that it will 
be forthcoming in the future.
    Mr. Shadegg. The chairman wholeheartedly agrees with your 
concerns, those expressed by the ranking member of the full 
committee and those expressed by Mr. Shays. I mean, I think 
quite frankly some of this testimony has been shocking. And 
clearly there is a wide gulf between what the committee 
believes the statute requires you to do and what resources and 
assets we believe ought to be brought to bear to that task and 
as contrasted with what you have testified today are being 
brought to that task.
    It is the Chair's absolute intention to conduct another 
hearing in the immediate future, and if necessary, to go into 
closed session. We were prepared if necessary today to go into 
closed session, but we were advised we wouldn't get fully more 
information than we would in open session. So I share that 
grave concern. Let me give--Mr. Etheridge expressed a desire to 
ask an additional question.
    Mr. Etheridge. Thank you, Mr. Chairman. I share your great 
concern as well as others. I do think we have a big job to do. 
We can't do a job without information. And information thus far 
has been woefully lacking.
    Mr. Redmond, let me ask you one final question among many, 
but impair it down to one. In addition to, and we have talked a 
lot today about overseas threats as it relates, I think we have 
an obligation to do that, are you also monitoring domestic 
threats? I know the conversation on the previous question was 
the FBI information. But are you monitoring domestic threats? 
Because I think homeland security is charged with that 
specifically.
    Mr. Redmond. We are not monitoring purely domestic threats 
such as far right wing organizations, no.
    Mr. Etheridge. That was not my question.
    Mr. Redmond. I am sorry. I didn't understand.
    Mr. Etheridge. Let me repeat it. In addition to overseas 
threats, is your organization also monitoring domestic threats?
    Mr. Redmond. We are monitoring threats domestically that 
originate overseas such as al-Qaeda and other organizations 
similar to that. We are not monitoring threats that are purely 
domestic in origin or in operation.
    Mr. Etheridge. That would not include cells that are in 
this country.
    Mr. Redmond. Yes. I am sorry. Yes, we are monitoring the 
activities in this country, analyzing the activities of 
terrorist organizations where the organization starts overseas 
or is inspired overseas and organized overseas. We are not 
monitoring the activities of purely domestically originated 
threats, such as, I guess, far right-wing organizations or 
something.
    Mr. Shadegg. Thank the gentleman. Let me summarize some 
points. Both the chairman of the full committee, Mr. Cox and 
the ranking member of the full committee, have expressed their 
desire for this committee as your authorizing committee to 
support you. Mr. Cox said we are here, we are your friends, 
come to us to tell us what resources you need. Mr. Turner just 
expressed that same desire to help you. And everyone has 
expressed their sympathy for the fact that you are trying to 
stand up a massive department in a very short period of time 
and for your own careers and your professionalism, Mr. Shays 
stressed that. Notwithstanding those points, I think it is fair 
to say that everyone who has participated in the hearing has 
been somewhat shocked.
    The statute that you are guided by creates an Under 
Secretary for Homeland Security for information analysis and 
infrastructure, it then lists the responsibilities of that 
Under Secretary, and it is your job to help him perform those 
as the assistant. There are 19 different responsibilities 
listed. I must tell you that I wouldn't even think of trying to 
discharge those 19 responsibilities with the size of staff you 
have testified to us you have here. I think there is grave 
concern that for reasons of lack of space or lack of whatever, 
maybe it is lack of focus, the effort to carry out those 19 
responsibilities is not being done. And I think Mr. Shays did 
an excellent job of pointing out that he had grave concern 
about whether these responsibilities were being executed, given 
the certain circumstance.
    We are here to help you. We want to help you. In response 
to Mr. Turner's questioning, you said, well, one of the reasons 
you may not be getting the information you need from DIA and 
NSA and the other agencies is that you don't have the 
facilities to do that. It has been suggested to me that at 
least in the interim perhaps the best thing to do would be to 
send your own personnel over to secure facilities where you 
could get that information. At the end of the day, I made it 
clear in my opening statement that the defense of the Nation 
depends, in large measure, on the intelligence we can gather. I 
personally don't believe that we can protect the Nation by 
simply being prepared to take care of those who have already 
been injured.
    I think we have to lean forward, I think we have to use our 
intelligence resources, I think we have to assess these threats 
and I think we have to stop them before Americans are 
victimized by another attack. I am deeply concerned about the 
testimony that has come out here today, whether or not the 
Department is bringing the forces to bear that need to be 
brought to bear.
    The real issue that brought us here was whether or not we 
should pass the BioShield Act, which would impose new 
responsibilities on you. The purpose of the hearing was to look 
at whether or not the Homeland Security Secretary would be able 
to assess current and emerging threats of chemical biological, 
radiological and nuclear agents, determine which present a 
material threat and then allocate the resources of BioShield to 
that task. And as Mr. Markey pointed out, those resources are 
to be allocated. The administration wanted them to be--actually 
wanted them to be an entitlement. The appropriators have said 
no, they won't be an entitlement. We will advance appropriate 
them but then we will subject them to some type of 
appropriation. I think there is grave concern about whether 
that Act could be meaningfully enacted at this point in time, 
given what appears to be a lack of resources dedicated to this 
task.
    I would very much appreciate it if you gentlemen would 
consult with the Secretary, look at some of the issues that 
have been raised at this hearing and would get back to us. I 
would like to see us hold another hearing on this topic some 
time within the next 2 weeks as we are required to mark up the 
BioShield Act as soon as possible. And it seems to me we are 
woefully short of the information we need to do that.
    With that, let me announce that the hearing record will 
remain open for 10 days for additional questions. I want to 
thank our witnesses for their candid testimony and it is a 
difficult process, and I do sympathize with the immense 
challenge of trying to stand up a new Department. I just simply 
say we also have a responsibility to make sure that the job is 
getting done. So I appreciate you for your time. The committee 
stands adjourned.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
